         LEGAL SERVICES CORPORATION




         OFFICE OF INSPECTOR GENERAL

              INSPECTION REPORT

CONTRACT SERVICE AND RELATED EXPENSE PAYMENTS

                    95-056

                  JULY 1995
-
= LEGAL SERVICES CORPORATION
     750 1st Street, NE, 10th Floor, Washington, D.C.20002-4250
     (202) 336-8830                             Fax (202) 336-8955

OFFICE OF INSPECTOR GENERAL



                                                               July 18, 1995



                                     TO THE BOARD OF DIRECTORS


  This report transmits the results of the Inspection of Contract Service and Related Expense
  Payments (OIG Project 95-056). The Inspection was conducted in accordance with the Quality
  Standards for Inspections promulgated by the President's Council on Integrity and Efficiency.

  Management's decisions and comments have been incorporated where appropriate within the
  report, and are appended in full to the report. The OIG will review the progress of corrective
  actions taken in response to this report in February 1996, and will report our findiigs to you.

  Copies of the report will be provided to the appropriate committees of Congress as requested.
  The report will not be released to the public for 30 days unless the contents of the report are
  disclosed publicly sooner. If you have any questions, please direct your inquiries to me or Mr.
  Robert Holliday, Assistant Inspector General for Program Integrity at (202) 336-8833.




                                                               Edouard R. Quatrevaux
                                                               Inspector General
                                                       TABLE OF CONTENTS

    BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

    RESULTSINBREF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

.   FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   3

               Some Members of the Transition Team Received Benefits Not Authorized in the
               Corporate Policies and Not Available To All LSC Employees . . . . . . . . . . . . . . . . . . . . 3

               In Some Instances LSC Did Not Report All Employee and Independent Contractor
               1994 Compensation to the Internal Revenue Service and Did Not Comply with Tax
               Withholding Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

               The Director of the Office of Program Services Was Classified Inappropriately As An
               Independentcontractor . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

               Lack of A Policy On Frequent Flyer Mileage Permits Potential Conflicts of Interest
               and Resulted In Unnecessary Expenses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

               LSC Employees Used Government Contract Fares For Personal Travel Which
               Violated Both Its Memorandum Of Understandig With the General Services
               Administration And Omega Travel Services And Its Own Travel Policies . . . . . . . . . . . 17

    RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .21

    APPENDICES

               APPENDIX I                       Objectives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . I

               APPENDIX I1                      Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

               APPENDIX In                     Assistant Inspector General For Legal
                                               Review Memorandum of July 7, 1995,
                                               Review of Legal Issues Raised by
                                               Certain Fringe Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .I11

               APPENDIX IV                     Assistant Inspector General For Legal
                                               Review Memorandum of July 7, 1995,
                                               Employee       versus          Independent
                                               Contractor . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . IV

               APPENDIX V                      Management Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . VI

               APPENDIX VI                     Major Contributors to the Report . . . . . . . . . . . . . . . . . . . . . . VI
BACKGROUND

        On August 6 and September 7, 1993, President Clinton nominated the present Legal Services
Corporation Board of Directors. The Senate confirmed the Board and the Board was sworn-in
during November 1993. Effective January 1, 1994, the Board appointed an interim President to
oversee LSC's transition under the new Board and, in June 1994, he accepted the position on an
indefinite basis.

        The President appointed a number of people to assist him in fulfilling his responsibilities. All
were hired, at least initially, pursuant to employment contracts for temporary, transition periods. For
ease of reference, these interim managers, including the LSC President, the independent contractors
hired to assist them, and the one additional member of senior management hired under contract during
the period under review, are referred to as the "transition team."

        Most members of the transition team lived outside the Washington, D.C. metropolitan area
and did not relocate. Many members of this team assumed indefinite positions at LSC at the end of
their contracts.




                        Executive Vice President




        The interim President and the Executive Vice President assumed their positions on an
indefinite basis in June and July 1994, respectively. The Director of the Office of Program
Evaluation, Analysis and ReviewIOffice of Program Services (OPEARJOPS) accepted an indefinite
appointment as the Director of OPEAR in mid-July 1994. One of the independent contractors was
offered and declined the position of the Diector of OPS and the other independent contractor ceased
to work for LSC in mid-August 1994. The Special Assistant to the President was a temporary
employee from April 12, 1994 until her appointment as an indefinite employee effective September
1, 1994. The Assistant to the President was appointed an OPEAR Program Officer in early January
1995 and the Acting Director of OPS became the Director of OPS at the expiration of her contract
on April 18,1995.
        In October 1994, the Office of Inspector General (OIG) met with the Executive Vice-
President to n o t e the Corporation of OIG concerns regarding the travel of the Director of OPEAR
and a trip taken by the Special Assistant to the President. By memorandum, the Executive Vice-
President nosed the OIG that the travel identiiied by the OIG as a cause for concern would cease.

         In September 1994, the OIG had scheduled an inspection of travel and contractor payments
for the latter part of Fiscal Year 1995. However, on April 4, 1995, a Washington, D.C.newspaper
published an article criticizing the LSC-knded travel of the Director of OPEAR. Also, on April 4,
1995, Congressman Harold Rogers requested related information regarding LSC employees, contract
employees, consultants, and transition team members. On April 6, 1995, the OIG initiated the
inspection of contract services and related payments.

RESULTS IN BRIEF
       The inspection covered the period of January 1, 1994 through March 30,1995 and examined
payments to, for and/or on behalf of members of the LSC transition team. See Appendix I for
Objectives and Appendix 11for Scope and Methodology.

        The inspection determined that LSC's internal control structure over temporary employees,
contract employees and independent contractors and related benefits and privileges was inadequate
andlor ineffective. The Corporation extended benefits to some of the transition team not offered to
other Corporate employees or authorized in LSC policies. This occurred during a period in which
the Corporation's management had instituted personnel-related austerity measures.

       The inspection found that:

               some members of the transition team received benefits not authorized in the corporate
               policies and not available to all LSC employees,

               in some instances LSC did not report all employee and independent contractor 1994
               compensation to the Internal Revenue Service and did not comply with tax
               withholding requirements,

               the Director of the Office of Program Services was classified inappropriately as an
               independent contractor,

               lack of a policy on fiequent flyer mileage pennits potential conflicts of interest and
               resulted in unnecessary expenses,

               LSC employees used Government contract fares for personal travel which
               violated both its Memorandum of Understanding with the General Services
               Administration and Omega Travel Services and its own travel policies.
        Although most of the benefits discussed below were not provided for by the LSC
Administrative Manual or Personnel Policy Manual, or any other documented LSC policy, they, with
the exception of employee personal travel at Govemment contract rates, were not prohibited by LSC
policies or applicable law or regulation. The LSC President, as chief executive of the Corporation,
had the authority to approve expenditures for purposes related to the statutory business of LSC. The
payments reviewed were sufficiently related to LSC's statutory purposes to place them within the
scope of expenditures that may be lawfully approved by the President. The President waived all
benefits for himself during the transition period, including medical and retirement benefits.

        In some instances, however, the manner in which benefits were delivered violated provisions
of LSC travel policy, as expressed in Chapter 6 of the LSC Administrative Manual.' Those
provisions included, for example -- a prohibition against personal travel at Government contract rates;
a requirement that only the most economical travel be approved; and, a prohibition against selection
of a specific airline or flight based on the traveler's personal preference rather than on the costs and
benefits to LSC.

        Moreover, in some cases the value of these benefits was not appropriately reported to the
individual involved or to the Internal Revenue Service ("IRS") under the Internal Revenue Code
("IRC" or "Code"). In no instance did LSC treat the value of these fiinge benefits as compensation
to the employee or contractor involved. While exclusion fiom compensation was within the Code
in some instances, it was not appropriate in all.

       The OIG has requested an opinion from the Comptroller General of the United States
concerning the ownership and use of frequent flyer mileage premiums obtained by LSC employees
as a consequence of official travel.

FINDINGS

A.       Some Members Of The Transition Team Received Benefits Not Authorized in the
         Corporate Policies And Not Available To All LSC Employees.

         Contracts between the Corporation and various members of the transition team provided
         certain fiinge benefits which were not available under LSC's Personnel Policy and
         Administrative Manuals and, therefore, were not available to other LSC employees. The
         additional benefits included travel between LSC and home, payment of private health
         insurance, apartments leased at Corporate expense, reimbursement for child care and
         housekeeping, salary increases, parking, and special retirement benefits. The LSC Board of
         Directors and management imposed a salary fieeze for all the Corporation's regular employees
         during calendar year 1994 as a cost savings measure. This action was taken because of a
         $2,000,000 management and administration deficit inherited fiom the prior management.


         'Chapter 6 is "the official travel policy of the [LSC]," and, by its terms, it governs "travel by any board member,
employee (regular or temporary), consultant or invited guest paid for in whole or part with LSC funds." Chapter 6, Part LA.
          1.       Travel Between Home and LSC. Employment contracts for the Director of
                   OPEAR/OPS and the Assistant to the President provided for reasonable travel home.
                   They travelled to their homes at LSC expense 58 times during the inspection period.
                   The term "Reasonable transportation expenses" was not defined in the contracts or
                   the Corporation's Administrative manual.

         2.        Medical Insurance Outside LSC Plan. The Corporation paid over $8,000 to the
                   Executive Vice President, Director of OPEARIOPS and the Assistant to the President
                   in 1994 for outside medical i.nsumce. As of the date of this Report, the Corporation
                   continued to compensate the Director of OPEAR for medical insurance. The
                   payments did not exceed amounts the Corporation would have paid for the employees'
                   insurance through the LSC plan.

         3.        Apartment Leases. The Corporation leased apartments for the Director of OPEAR,
                   Assistant to the President and an independent contractor. The total of lease and
                   related utility payments was over $24,900. Leasiig the apartments was cost effective
                   when compared to daily hotel lodging expenses.

         4.        Child Care and Housekeeping. An independent contractor was compensated at a
                   rate equivalent to approximately $104,000 per year and was entitled by contract to
                   reimbursement of child care and housekeeping expenses. The Corporation paid the
                   contractor $1,330 for child care and $1,114 for cooking.

         5.        Management Salary Adjustments. Effective October 1, 1994, during the general
                   pay fieeze, the Executive Vice President and the Director of OPEARIOPS received
                   salary increases of 18% and 15%, respectively. The personnel files for these two
                   employees contained no justification for the salary increases.

         6.        Parking. In 1994, the Corporation paid Central Parking System $1,320 for a parking
                   space for the Executive Vice President. As of June 1, 1995, LSC continued to pay
                   $120 per month for the Executive Vice President's parking. LSC's practice in recent
                   administrations has been to pay parking for its President and, in the more distant past,
                   it has paid for other employees' parking.

         7.        Retirement Benefits. The contracts of the Executive Vice President, Director of
                   OPEARJOPS and the Assistant to the President, which expired, provided for direct
                   payment to them of amounts contributed by LSC to the retirement program upon their
                   departure fiom LSC.'




          %he Corporationlater determined that the Director of OPEARIOPS and Assistant to the President were llly vested
in the Corporation's thrift plan because of their prior LSC employment. In April 1994, their retirement clauses were modified.
         Providiig benefits beyond those authorized in written policies can have the effect of removing
         such benefits from the existing system of internal controls provided by the official written
         policies. In some instances benefits were paid which were not permitted either by the LSC
         Personnel Policy Manual or a contract in effect at the time. Management's ability to operate
         outside established internal controls and the structure's failure to identify such deviations are
         indicators of an inadequate internal control ~tructure.~ In addition, granting these benefits to
         some transition team members while fieezing salaries and suspending leave accrual for the
         regular LSC worldorce created the appearance of favoritism.

         Recommendation 1. The Corporation provide no benefits that are not expressly
         authorized by the Personnel Policy Manual or Administrative Manual.

         Management Re~ponse.~       "Management agrees with the Report's conclusion that benefits
         paid to members of the transition team, such as paid travel between home and Washington,
         D.C., payment of medical insurance outside of the LSC plan, housing in Washington, and, in
         one instance, child care and housekeeping, were      unlawful or otherwise improper.

         With respect to the criticism of the decision to provide benefits beyond those authorized in
         written policies to members of the transition team, the Report does not give sufficient
         consideration to the business-related reasons why the contractual arrangements were
         necessary and appropriate under the special circumstances presented. In early December,
         1993, Alexander Forger was invited by the new Board of Directors of LSC to become the
         President of the Corporation on an interim basis while a search was undertaken for the
         selection of a permanent President. Mr. Forger's mandate from the Board was to restore the
         stature and effectiveness of the legal services program and to redesign the Corporation's
         monitoring function to make it more effective. In addition, Mr. Forger was charged with
         addressing LSC's large financial deficit resulting from prior Management's decision to move
         into a new headquarters without first renting its old offices, a decision made apparently
         without objection. To accomplish this mandate, it was essential to attract a group of senior
         managers who were already highly experienced and knowledgeable in the delivery of legal
         services to low-income people.




         3~haPter  6, Part I.F. of the LSC AdministrativeManual requires travelers to submit Travel Expense Reports within
20 working days of travel completion. However, members of the transition team routinely did not comply with this
quirement. Some expense reports were submitted over six months after travel was completed. The Corporation did not have
a system in place to ensure prompt submission of travel expense reports nor did the Corporation's policies establish a
consequencefor failure to comply with current submission requirements. This internal control structure weakness diminished
the Comptroller's ability to provide timely, accurate reports of the Corporation's travel expenditures to division directors and
the Board ofDinxtors. Moreaver, undue delay in submitting and processing travel expense reports unnecessarily exposed the
Corporation to increased opportunity for misuse of travel funds.

         4 ~ i t the
                 h exception of the footnotes, the responses of Management are quoted in full throughout the report. The
footnotes appear in full in the copy of the Management Response which is attached as Appendix V.
In the months of December 1993 and January 1994, it was extremely difficult to find
individualswho were wiUing to join the transition on short notice and to accept the positions
without any guarantee of &re employment. People whose experience and skills made them
uniquely qualified to accomplish the transition tasks resided outside of Washington, D.C.,
were in mid-career with established homes and family responsibilities, and could not simply
pick up and move to Washington for a temporary, short-term assignment. Rather than lose
these individuals entirely, Mr. Forger determined that it was reasonable under the
circumstancesto make it possible for these indiduals to work in Washington on a short-term
bases. While such arrangements were not set forth in the LSC Personnel Manual, Mr. Forger
understood that the Manual did not preclude such arrangements in the case of temporary
employees and he was assured that he had legal authority and flexibility to make these
arrangements because of the extraordinary circumstances presented.

Management disagrees with the Report's conclusion that the contractual arrangements
indicate 'an inadequate control structure.' The arrangements were set forth in written
contracts executed by each member of the transition team; the contracts were reviewed and
approved by the Office of General Counsel and were available to any LSC employee
responsible for personnel administration or fiscal practices. The OIG itself was able to rely
upon these contracts in performing its Inspection. Moreover, there is no evidence in the
Report that the arrangements were abused. Leasing apartments rather than paying for daily
hotel lodging resulted in a significant savings to the Corporation. The payment of medical
insurance outside the LSC plan was limited so that there would be no additional costs to LSC
and, in one instance, even resulted in a savings to LSC for a period of time. Even LSC's
payment of travel home for two transition employees was no more costly and far more
efficient than if these individuals had remained at their homes and worked for LSC as
consultants. Finally, as noted in the Report, the President waived all benefits during the
transition period, including medical and retirement benefits.

Management also disagrees with the Report's conclusion that an appearance of 'favoritism'
resulted fiom the payment of special benefits to the transition team. The arrangements were
made in order to obtain the services of several key employees who otherwise could not have
assisted in the transition. Members of the transition team who did not have these problems,
because they already lived in Washington, D.C., were not paid the benefits. Nor, of course,
were regular employees who lived with their families in the Washington area. It is unlikely
that any of them would have or could have thought themselves the victims of 'favoritism'.

Finally, Management does not agree with the Report's recommendation that LSC provide no
benefits not authorized by the Personnel Manual or the Administrative Manual. Although
these written policies should continue to govern in most circumstances, it cannot be certain
that special circumstances, such as those presented in the transition, will not arise again.
Management should have the flexiiility to deal with these future circumstances as warranted.
     Management also wishes to point out a number of instances in which the Report omits
     si@cant facts relating to the provision of various benefits. For example, the Report states
     that the Executive -ce President and the Director of OPEARIOPS received salary increases
     effective October 1, 1994, although a Board imposed salary freeze was in effect at the time.
     in fact, the salary flxed on October 1, 1994 for both employees was the first time that a salary
     was determined for them as permanent employees. Until that date they had continued to
     receive the same salary as had been paid during the period of their temporary employment.

     The Report also states that LSC's practice in the past has been to pay parking for its
     President, thereby suggesting that the decision to pay parking for the Executive Vice
     President deviated fiom prior practice and constituted an additional expense. In fact, in the
     past LSC has paid parking for employees other than the President, including the Vice-
     President, Corporate Secretary, and Director of Policy Development and Communications.
     And, in this instance, the President himself did not request a parking space so that LSC
     continued to pay for only one space.

     The Report states that LSC agreed with three of the members of the transition team to make
     lump-sum payments equivalent to the amount of the Corporation's retirement plan
     contributions upon termination of their employment if the contributions had not then vested.
     As the Report notes, these arrangements were amended when it was learned that two of these
     individuals were already vested under the LSC plan because of service credits earned in earlier
     years, and the third employee never received a lump-sum payment because she became a
     member of the permanent staff. The Report does not acknowledge that these arrangements
     were an appropriate effort to insure that the individuals would receive the benefit of the
     retirement contributions, since they were expected to be employed for periods shorter than
     the plan's vesting schedule, nor that LSC has entered similar arrangements in the past for the
     same reason. I'

     OIG Comments. The OIG disagrees that the employment contracts constituted an adequate
     control structure. We noted that contracts were made effective retroactively and modified
     retroactively, and that some benefits were provided without a written contract in effect.

B.   In Some Instances LSC Did Not Report All Employee and Independent Contractor
     1994 Compensation to the Internal Revenue Service and Did Not Comply with Tax
     Withholding Requirements.

     The Corporation did not comply with the Internal Revenue Code's requirements regarding tax
     reporting and withholding of employee and contractor compensation. Except as otherwise
     specifically provided in the Code, gross income is all income from whatever source derived,
     including compensation for services, which includes the value of fiinge benefits. The value
     of a fiinge benefit provided in connection with the performance of services is includable in
     gross income as compensation, unless specifically excludible under a Code provision.
         LSC obtained two legal opinions on travel related payments. One, fiom its Office of General
         Counsel (OGC) in the Spring of 1994 and the second, at the request of the Assistant to the
         President, &oma law firmin the Summer of 1994 for a fee of $1,585. The Corporation also
         received an O W opinion of December 14, 1994 concerning medical insurance
         reimbursements and moving related expenses.

         In early October 1994, the OIG infonned the Executive Vice President that it believed LSC's
         payment for the Director of OPEAR's travel between LSC and home and a trip by the Special
         Assistant to the President to her home, was inappropriate and subject to criticism. LSC
         hhnagernent's Response, dated November 11, 1994, stated that LSC had not considered the
         employee's travel between LSC headquarters and his home to be personal travel but, "to avoid
         any concerns about appearance or appropriateness, the Corporation and the employee have
         agreed that, as of the date he became a regular employee, October 1, 1994, LSC would no
         longer pay his travel to and fiom LSC headquarters and his permanent residence in
         Colorado." However, the inspection revealed that management did not cease payment of
         personal travel and lodging expenses for the Director of OPEARfOPS and the Assistant to
         the President.

         Most of the extra benefits provided to the transition team were provided for in employment
         contracts executed by the LSC President, and Chapter 7 of LSC's Administrative Manual
         permits payments for certain travel and relocation expenses. However, as detailed below, a
         number of the payments permitted by the contracts andlor Administrative Manual were not
         excludible fi-omthe income of the recipient.'

          1.       Personal Travel And Apartment Leases.

                   The Director of OPEAR. According to the Corporation's personnel files, the
                   Director was appointed a regular salaried employee, effective January 11, 1994. The
                   contract had a termination date of July 17, 1994. A July 7, 1994 letter fiom the LSC
                   President to the Board of Directors stated that an offer had been extended to the
                   Director of OPEAR to continue to serve in that capacity. At the July 16, 1994 Board
                   of Directors meeting, the President announced that the Director ". . . has agreed to
                   continue on as a director of OPEAR."~Therefore, a realistic expectation that the
                   Director would hold the position indefinitely arose no later than July 16, 1994. The


          %rider Section 132(d) of the IRC, payments of expenses by an employer which, if paid for by the recipient, would
be deductible by the recipient as a business expense under section 162 of the Code are excludible fiom the recipient's reported
ccmpemation Expenses of comm-            to and livingnear the principal place of business are generally nondeductible personal
expenses. IRC $262. Expenses of commuting to and lodging near a temporary job, however, may nonetheless be deductible,
but no temporary job can last more than one year. IRC $ 162. A job cannot be considered ternporaxy a h a realistic
expectation arises that it will be ofpexmanent or indefinite duration or will last for more than one year. Rev.Rul. 93-86, 1993-
40, 11/24/93.

         ' ~ u l16,1994
                 ~      LSC Board of Directors meeting, transmipt page 46.
                   only documented change in the Director's employment subsequent to that date was
                   a salary adjustment executed by the President, dated October 4, 1994, with an
                   effective date of October 1, 1994.

                   However, LSC continued to pay for some of the Director's trips home after July 16,
                   1994. Between July 17, 1994 and December 3 1, 1994, at LSC expense, the Director
                   made 10 additional trips home - four direct fiom Dulles Airport and six as extensions
                   to LSC-related business trips. LSC also continued to pay the rent on his Washington,
                   D.C. apartment through October 1994.

                   All amounts paid or reimbursed by LSC fiom July 17, 1994 through December 3 1,
                   1994, for the Director's lodging in Washington, D.C. and travel to his domicile were
                   compensation and not excludible fiom his 1994 income under the law.

                   Assistant to the President. According to LSC records, the Assistant to the President
                   became a regular employee ofLSC on January 12, 1994. The Assistant's employment
                   contract, dated February 16, 1994, was retroactive to January 12, 1994 and had a
                   termination date of September 7,1994.' The contract was extended fiom September
                   7 through November 30, 1994 and, by letter of December 2, 1994, the contract was
                   hrther extended until December 3 1, 1994. Finally, by letter dated December 3 1,
                   1994 with acceptance by the Assistant dated January 4, 1995, the term of the his
                   employment contract was extended fiom January 1, 1995 through January 11, 1995,
                   one year to the day fiom the start of his employment at LSC.*



              y signature on August 10, 1994, the Assistant to the President accepted a replacement contract dated August
         7 ~ his
2, 1994, whlch was retroactive fiom July 1, 1994 to September 7, 1994, the same termination date as the original contract.
Modifications to the original contract were not significant for present purposes.

          %ased on LSC records, the Assistant to the President was originally appointed to the position of Program Officer
as of January 1,1995. The official personnel action form effectuating this change in his position was dated January 9, 1995.
The second official personnel action form making this same change as of January 12, 1995 was dated February 6. The
Assistant to the President had requested this change in the date of his indefinite appointment. In a January 25, 1995
memorandum to the LSC Executive Vice President, he wrote:
                     "I should not have been appointed effective January 1. I accepted the job offer on January 5, and
                     began working the following week I began work as a temporary employee on January 23,1994,
                     and we agreedthat my new permanent appointment should be effective on January 12. As a result
                     of this conclusion, my contract as a temporary employee needs to be extended for January 1
                     throughJanuary 12. [GeneralCounsel] has handled prior extensions and should be asked to take
                     care of this one."
          In a February 1, 1995 e-mail message to the Executive Vice President, the Assistant to the President wrote: "My
employment form will show I commenced employment 1/12/95. I'll pass along to [General Counsel] a request for a contract
exteniion through 1111/95."
          These documents appear to require a conclusion that both the letter dated December 3 1,1994 fiom the LSC President,
which extRlded the Assistant to the President's employment contract fiom January 1,1995 through January 11, 1995, and the
Assistant to the President's January 4, 1995 signature on that letter, were backdated. That "December 3 1" contract extension
appears to have been created sometime after February 1, 1995.
                   Thus, according to some LSC records, he became a Program Officer on January 12,
                   1995, the day after the M h and last contract e~pired.~
                                                                        However, Corporation payroll
                   records reflect that effective January 1, 1995, his salary was reduced from the
                   Assistant to the President contract rate of $90,000 to the current rate of pay of
                   $85,000 as a Program Officer. Further, an OfficialPersonnel Action form signed by
                   the Director of OPEAR and Director of OHR on January 9, 1995, appointed him a
                   Program Officer, effective January 1, 1995.

                   According to the Director of OHR, at the end of January 1995, the Executive Vice
                   President told her to contact the Corporation's General Counsel and request an 11-day
                   contract for the Assistant for the period of January 1 through 11, 1995, and to
                   prepare a new Official Personnel Action form appointing him a Program Officer,
                   effective January 12, 1995. The Director of OHR stated that the change in the
                   Assistant's appointment date was done to allow LSC to pay a portion of his COBRA1'
                   insurance coverage for the month of January 1995. According to General Counsel,
                   the contract extension for January 1 through 1 1, 1995 was prepared on February 24,
                   1995. The General Counsel stated it was his understanding that management's intent
                   was to allow the Assistant to stay on contract for exactly one year and no longer
                   because of the tax consequences. In an interview, the Assistant (now Program
                   Officer) stated that the initial conclusion was to make the employment effective
                   retroactive to January 1, 1995 but because of the consequences of temporary versus
                   indehite employment and the related travel and lodging expenses, a January 12, 1995
                   indehite employment date was established.'' It appears that the contract extension
                   dated December 3 1,1994, was executed on February 24, 1995 by the LSC President
                   and was expected to allow the Assistant to earn a higher salary as an Assistant to the
                   President, to receive special benefits and to avoid tax consequences on those benefits.

                   Under the legal opinions obtained by LSC and prepared by the OIG, the latest date
                   on which the Assistant's realistic expectation could have changed from one of
                   temporary employment to one of indefinite employment was January 5, 1995. This
                   was the latest date on which, according to the Assistant, the offer of indefinite
                   employment was accepted. After an offer of indefinite employment was made by LSC
                   and accepted by the Assistant, he should have no longer been classified as a temporary


          ' ~ u r i nan
                      ~ interview, the Assistant to the President stated that he had requested, and LSC had obtained, legal
opinions on the taxability of certain payments he received fiom LSC. One of these, the August 18, 1994 letter fiom outside
counsel for $1,585, was forwarded to the Assistant to the President by LSC's Office of General Counsel with a cover
memorandum dated August 19,1994, and again with one dated September 9,1994. Both the August 18 wver memorandum
and outside counsel opinion concludedthat the Assistant to the President's travel expenses would be excludible fiom his income
as long as his employment at LSC did not last more than one year and as long as there was not a realistic expectation that his
employment would last indefinitely or for more than one year.

         'O~onsolidatedOmnibus Budget Reconciliation Act of 1986.

         "~une13, 1995 OIG interview of the Assistant to the President.
                 employee. A written offer of employment, with a stated date of February 3, 1995,
                 was accepted by him in writing with a stated date of February 6, 1995.

                 LSC reimbursed the Assistant for his Washington, D.C. apartment rent for January
                 1995 and paid the utilities through February 4, 1995. LSC also paid for three round
                 trips to Boston and one trip back to LSC, between January 7 and 3 1, 1995.

                 ~moun'tspaid or reimbursed by LSC after January 5, 1995 for the Assistant's lodging
                 in Washington, D.C. and travel between LSC headquarters and his domicile in
                 Massachusetts were compensation not excludible fiom his income under the law and
                 are subject to withholding.'*

                 Director of OPS. Under a contract with an execution date of January 27, 1995 and
                 retroactively effective as of January 3, 1995, the current Director of OPS was hired
                 as "Acting Director of the Corporation's OPS, . . . continuing until you assume the
                 position of Director of OPS as a regular, full-time employee." The contract was to
                 be renegotiated ifthe Director was ". . . unable to assume the position of Director of
                 OPS on a regular, full-time basis on or about April 17, 1995." The Corporation
                 extended a written offer of employment dated April 17, 1995, to her for the position
                 of Director, OPS, commencing April 18, 1995, Her acceptance of this offer is dated
                 May 5, 1995.

                 The contract appeared to contemplate that the Director of OPS would continue in the
                 position on an indefinite basis. The Director was entitled, under this contract, to
                 continue to serve as the Executive Director of the Legal Services Corporation of
                 Alabama (LSCA), an LSC grantee, but was not to earn compensation fiom both on
                 the same day. The contract also entitled her to reimbursement, according to the
                 Corporation's Administrative Manual, for five trips, which she took, between
                 Washington, D.C. and her home in Alabama and for meals and lodging within the
                 District of Columbia area. The contract stated that, in view of the reimbursable trips
                 it allowed, the Director would not be entitled to moving expenses permitted by the
                 Administrative Manual. LSCA records show that the Director of OPS resigned as its
                 Executive Director effective April 14, 1995.

                 During the contract period, the Director was transitioning from an old job at LSCA
                 to a new one at LSC. Her new job at LSC was, fiom the outset, expected to be the
                 new indefinite business location during the year. From January 1995 through April
                 17, 1995, when she held jobs with LSC and LSCA., she worked substantially more
                 days, and earned a substantially greater amount for the days worked, at LSC than at
                 LSCA LSC records show that she was paid for 41.07 days as the Director of LSC's


         '*one trip from the Assistant to the President's home in Boston to his job in Washington, D.C.may have been
excludible fiom hls income as relocation expenses under Section 132 of the Code.
     OPS during the contract period at a rate of $103,000 per year. According to LSCA,
     during the contract period, she was paid for 29 days of work and two holidays as
     Executive Director at a rate of $67,500 per year.

     The Director's expenses for traveling home to Alabama and meals and lodging while
     in Washington, D.C. would not be deductible as busiiess expenses in connection with
     work at LSC, and therefore, are not excludible fiom her 1995 compensation, because
     the position at LSC was indefinite as opposed to temporary and LSC was the
     principal place of employment.

2.   Medical Insurance

     Outside of its regular medical insurance plan for employees, LSC provided payments
     earmarked for inwrance reimbursement directly to three employees. These payments
     were in compliance with the employees' contracts, with the exception of payments to
     the Director of OPEAR after his contract expired in July 1994. Under the law, to
     exclude the payments from employee income, an employer must obtain proof of
     premium payment by the employee. LSC did not require proof that the employees
     had, in fact, paid insurance premiums. In two instances, however, LSC nonetheless
     received d c i e n t proof to ascertain the existence and payment of the insurance -- the
     Director of OPEAR for 1994 and the Assistant to the President for February 1994 --
     therefore, those payments would appear to be excludible fiom income. In the other
     instances, however, the required proofs were not obtained and the reimbursement
     would not be properly excludible from income under the law. The amounts paid by
     LSC was compensation to the employees and should have been treated as such for
     payments made in calendar year 1994 and should be treated as such for payments
     made in calendar year 1995.

3.   Child Care and Housekeeping.

     Child care, unless provided under an employer's plan according to the Code, and
     housekeeping are nondeductible and non-excludible personal expenses. On May 9,
     1994, based on one receipt for child care and six receipts for cooking, LSC paid a
     contractor for child care and cooking expenses. Because the individual was an
     independent contractor rather than an employee, LSC was not required to withhold
     payroll and income taxes from this amount. However, LSC should have reported the
     amount as income on the contractor's Form 1099, but did not.
                                         Unreported Compensation
                                                         Assistant to the
                  Executive
                                   Director OPEAR       PresidentProgram        Contractor         Director OPS
                Vice President
                                                               05cer

               1994       1995    1994      1995        1994        1995      1994     1995       1994    1995.
Travel               $0      $0   $1,638           A           $0      $799      $0          $0     $0    $2,038
Lodging              $0      $0   $2,670           $0          $0   $1,785       $0          $0     $0    $3,657
Per Diem             $0      $0        $0          $0          $0       $0       $0          $0     $0    $1,601
Medical        $2,132        $0       $0     $1,131      $2,133         $0       $0          $0     $0        $0
Child Care           $0      $0       $0           $0          $0       $0    $1,330         $0     $0        $0
Cooking              $0      $0       $0           $0          $0       $0    $1,114         $0     $0        $0
  Total        $2,132        $0   $4,308     $1,131      $2,133     $2,584    $2,444         $0     $0    $7,296

                A.        The Director of OPEAR's travel home at LSC expense in 1995 consisted of stops during a
                          business trip. A value for these stop-offs was not determined.

         Recommendation 2. The Corporation review and revise its personnel and
         administrative policies related to employee benefits to reflect current withholding and
         reporting requirements under the Internal Revenue Code.

         Recommendation 3. The Corporation determine the amount of unreported
         compensation for its employees and contractors and make appropriate payments to the
         Internal Revenue Service.

         Management Response. "Withrespect to Recommendation 2, Management agrees that it
         should review the tax treatment of all benefits, and it will do so. With respect to
         Recommendation 3, Management requested outside tax counsel to review the finding and
         conclusions in the Draft Report regarding the reporting of benefits paid to members of the
         transition team. Counsel has advised that, while the issue is a close one, the conservative
         approach is for LSC to treat payments noted in Finding B for certain employees as
         compensation. Based on this advice, Management is in the process of making the necessary
         adjustments and will file the appropriate forms with the IRS.

         However, Management believes that several assertions in this portion of the Report require
         amplification or correction:

                Although July 16, 1994, will be used for tax purposes as the effective date of
                the Director of OPEAR's indefinite employment, based on the advice of
                counsel, it should be noted that while the Director indicated his willingness to
        accept a position in mid-July, agreement was not reached on the final
        terms and conditions of his indefinite employment until October
        because of the press of other matters.

       The Report states that the Director of OPEAR made ten trips to Denver
       between July 17, 1994 and December 3 1, 1994 at LSC's expense and that
       LSC continued to pay the rent on his apartment in Washington, D.C. through
       October 1994. As noted above, the tax treatment of the Director's travel to
       Colorado prior to October 1, 1994will be adjusted. The Report is not correct
       that LSC paid for the Director's personal travel after October 1, 1994; the
       personal portion of all such trips was reimbursed.

       As for the Assistant to the President, he was asked in early January to take a
       permanent job as a Program Officer and he accepted on January 5, 1995,
       subject to agreement on satisfactory terms. He did not assume the Program
       Officer position until January 12, 1995. While Management, based on the
       advice of counsel, agrees to treat January 5 as the date upon which an
       expectation of continued employment arose, it will continue to use January 12
       as the date of his permanent employment for other purposes."

OIG Comment. The Director of OPEAKs reimbursement was not made until 1995, and
therefore LSC's payment for his travel was compensation for 1994 tax purposes.

The Director Of The OEce of Program Services Was Classified Inappropriately As An
Independent Contractor.

The Director of the Office of Program Services (OPS) vacancy was announced by the
Corporation on September 30, 1994 with a closing date of November 15, 1994. The
announcement stated that the Director of OPS is "[ulnder the general direction of the
Executive vce President." The announcement described the duties as including participation
"as a part of LSC Senior Management" in policy issues; review and approval of personnel
actions affecting the stafF of OPS; development of internal operating procedures; and
development and oversight ofthe OPS operational and program budget. The current Director
of OPS fonnally applied for the position by letter of November 15, 1994 and the hiring was
announced by the President of the LSC to the Board and staff on December 21, 1994. The
title and job description entrusted the Director of OPS with supervision of an important
corporate function. The Director of OPS is a long-standing and senior management position.

Under the Code, the Director was an employee of LSC fiom the beginning of the contract and
must be treated as such. LSC did not have a reasonable basis for treating her as an
independent contractor because its decision to do so was not based on judicial precedent,
published rulings, an IRSletter, a past IRS audit or long-standing industry practice. Second,
LSC treated the Director as an employee after the contract expired although her duties were
     indistinguishable from what they were while she was treated as a contractor. Finally, LSC has
     always treated the Director of OPS as an employee." Therefore, the Director was an
     employee of the Corporation during the term of the contract and must be treated as such by
     LSC in withholding and reporting of compensation for calendar year 1995.

     Recommendation 4. The Corporation review its practices with respect to classification
     of independent contractors to ensure that such practices comply with the Internal
     Revenue Code and the Corporation's policies.

     Management Response. "During the period from January 3, 1995 through April 17, 1995,
     the Director of OPS was employed only on a part-time basis, while she concluded her job
     responsibilities in Alabama, and her principal LSC duties in this period involved becoming
     familiar with LSC projects for which she would be responsible after assuming the position 111
     time. With respect to Recommendation 4, Management also asked outside tax counsel to
     review the Report's finding with respect to the classification of the Director of OPS. Tax
     counsel has recommended that the Director be reclassified as an employee for tax purposes.
     The correction can be made in the same fiscal year and the tax consequences will be minimal.
     Management will also consult tax counsel with regard to classification of other consultants."

     OIG Comments. None.

D.   Lack Of A Policy On Frequent Flyer Mileage Permits Potential Conflicts of Interest
     and Resulted In Unnecessary Expenses.

     The Corporation did not have a policy on ownership of fiequent flyer mileage earned by its
     employees on official travel. The Corporation's Administrative Manual did not make
     reference to fiequent flyer mileage awards. However, Chapter 6 of the LSC Administrative
     Manual did set parameters for travel. It required that only the most economical travel be
     approved and it prohibited selection of a spec5c airline or flight based on the traveler's
     personal preference rather than on the benefits to LSC. Furthermore, this chapter required
     travelers to use contract air carriers for all LSC travel between cities designated "city-pairs"
     by the GSA.

     The Director of OPEAR had a fiequent flyer membership with United Airlines and 96 percent
     of his LSC-paid travel was on United Airlines. At times, the Director had been ticketed on
     United and at other times he exchanged tickets obtained by the LSC travel office for flights
     on other airlines for United tickets. From January 11, 1994 through April 1995, the Director
     of OPEAR accumulated some 292,000 United Airlines miles as a consequence of official LSC
     travel. Ofthese miles, over 100,000 were earned on official LSC mileage and over 100,000
additional miles were earned on this travel based on the Director's United Airlines Premier
Executive status. An additional 77,000 miles were earned for hotel stays, rental cars and
Premier Plateau bonuses, while on official travel for LSC.

During an interview, the Director of OPEAR stated that when he i n t e ~ e w e dfor his position,
his desire to retain ownership of fiequent flyer miles earned as an employee of the
Corporationwas expressed to management. Corporate management informed him that it did
not have a policy on frequent flyer mileage and that it was not necessary to include a clause
regarding ownership of fiequent flyer mileage in his employment contract because it was not
prohibited to retain such mileage for personal use. The Director also stated that he directed
his M t o book him on United Airline flights whenever possible. He stated that he requested
United Airlines to enable him to earn frequent flyer mileage and enjoy other benefits of his
United Airlines Mileage Plus account.

The Director's most frequent destination was to his home in Colorado. United was the
contract canier to Denver fiom Dulles Airport. The Director of OPEAR stated that he chose
United for these trips because it provided non-stop flights, helped avoid weather delays and,
therefore, was less time-consuming and more convenient for him. He was not aware that it
cost $140 more for this United flight than for indirect fights available on the contract camer
out ofNationa1Auport and was not informed of the price differential by LSC's travel office.14
These flights accounted for the bulk of the unnecessary costs incurred by LSC for the
Directois preference for United Airlines flights. On another occasion he traded in a non-stop
ticket to New Orleans on a Government contract carrier for an indirect, non-contract United
flight. He stated he did so to earn fiequent flyer mileage. United agreed, at his request, to
honor the contract price so that there was no additional expense to LSC for the more time-
consuming United flight.

The Director's ability to direct his staffto book nights based on his personal preference and
convenience, without any question from responsible employees of LSC, along with the
Corporation's approval of the accumulation of officially earned fiequent flyer miles for
personal use and its failure to enforce existing travel rules, created a serious potential for
conflicts of interest, both real and apparent.

Recommendation 5. The Corporation develop and implement a frequent flyer benefits
policy which will avoid conflicts of interest or the appearance thereof.

Management Response. "While there has been no written policy regarding ownership of
fiequent flyer awards earned on official LSC travel, it has been the long-standing practice of
the Corporation to allow its employees to retain fiequent flyer benefits for their personal use.
This is documented in a 1986 memorandum &omthe General Counsel to the Secretary of the
Corporation in which he concluded that no provision of law prohibits the Corporation fiom


'%e   Director is responsible for a Fiscal Year 1995 travel budget of $747,000.
     treating fiequent flyer benefits in this way. In the early 1990s, a former LSC President
     considered whether to change the practice and concluded he would not.

     Management recognizes that by not attempting to recover frequent flyer awards earned on
     official travel, LSC may give up the opportunity to defray some official travel expenses.
     However, it should be noted that there would be signdicant administrative diiculties in
     attempting to recapture fiequent flyer awards fiom individual employees and the unsuccessfbl
     experience of many federal agencies which have attempted to do so. For these and other
     reasons, the former President of LSC concluded that any savings to LSC would not justify
     the additional administrative costs associated with a change in policy. As directed by the LSC
     Board of Directors at its meeting on July 14, 1995, Management will review the frequent flyer
     issue again, including the potential for conflicts of interest, taking into account the experience
     of federal agencies and other relevant entities. The results of this review will be incorporated
     into a written policy.

     With regard to the specifics of travel by the Director of OPEAR, the Report suggests that he
     incurred unnecessary expense by flying on United Airlines fiom Dulles Airport solely to
     accumulate additional fiequent flyer miles. In fact, the Director could have flown on United
     fiom National Auport as well. He flew on United fiom Dulles because the flights to and fiom
     Denver were nonstop, whereas flights fiom National on United and other carriqs take much
     longer and frequently would not have allowed him to reach home by Friday evening or to
     return to Washington, D.C. until very late on Monday. As the Report notes, the Director was
     not informed by the LSC travel office or Omega Travel Services nor was he otherwise aware
     of cost differences between flights fiom National Airport and flights fiom Dulles to Denver.
     However, whenever he was cognizant of cost differences in booking his flights, he took steps
     to insure that LSC incurred no extra cost, as he did with regard to the trip to New Orleans
     mentioned in the Report."

     OIG Comment. Responsible corporate officials stated unequivocally that there was no
     corporate policy. Northwest Airlines, not United Airlines, was the Government contract
     carrier from National Airport to Denver and therefore, use of United fiom National Airport
     to Denver would have violated LSC policy and the GSA contract.

E.   LSC Employees Used Government Contract Fares For Personal Travel Which Violated
     Both Its Memorandum Of Understanding With The General Services Administration
     And Omega Travel Services And Its Own Travel Policies.

     Through an arrangement with the General Services Administration (GSA), LSC was allowed
     to use Government contract travel rates. LSC's Memorandum of Understanding &IOU) with
     Omega World Travel Incorporated (Omega), required that, if personal travel were combined
     with officialtravel the traveler would be responsible for any increased costs associated with
     the arrangements. The GSA - Omega contract prohibited use of contract fares for any
     personal travel, including those instances where portions of personal travel are substituted for
a leg of an officially authorized trip." Moreover, Chapter 6 of the LSC Administrative
Manual prohibited personal travel at Government contract rates.16

1.      Misuse of Government Rates Due to Misclassification of Personal Travel.

        In the following instances, the use of Government contract rates for personal travel
        was a consequence of rnisclassificationof indefinite employees as temporary.

        o        The Director of OPEAR became an indefmite employee in mid-July 1994.
                 The Corporation, however, considered him a temporary employee until
                 October 1, 1994. From mid-July 1994 through October 1, 1994, he traveled
                 to his home eight times with airline tickets purchased fiom Omega at the
                 Government contract rate by LSC.

        o        Special Assistant to the President. The Corporation purchased Government
                 contract fare tickets through Omega for the Special Assistant to travel fiom
                 D.C. to Boston to D.C.for a "change in travel plans due to necessity to be in
                 D.C. for Corporation," in August 1994. During the Special Assistant's
                 intenriew, she said the trip was to attend her brother's wedding. Following an
                 October 1994 informal OIG inquiry into LSC employee travel, the LSC
                 Executive Vice-President notified the OIG by memorandum of November 11,
                 1994, that ". . . to avoid any concerns about appearance or appropriateness
                 in this matter, [the Special Assistant] has offered to reimburse LSC for the
                 travel costs and we have accepted her offer." The Special Assistant
                 reimbursed LSC for the cost of the travel after initiation of this inspection, on
                 April 27,1995.

        o        The Director of OPS became an indefinite employee of LSC on January 3,
                 1995, therefore, all travel between her home in Alabama and Washington,
                 D.C. was personal. The Corporation, however, considered her employment
                 as temporary through April 17, 1995. The Director of OPS took five trips
                 home on tickets purchased by LSC through Omega at Government rate
                 between January 3 and April 2, 1995 and one trip to Washington, D.C. on
                 April 17,1995.

2.      Misuse of Government Rates Due to Failure to Follow Rules.

        In other instances, employees apparently were allowed to travel at government rate
        although there was no mistaken belief that the travel was official.


''~eneral Services Administration Contract Number GS-OW-53322, Part I, Section C.I.A.(3)(a).

'%SC AdministrativeManual, Chapter 6,Part V.C.

                                               18
       o       The Director of OPEAR traveled to his home in Denver five times during
               three official trips, fiom October 1, 1994 through February 12, 1995, after
               LSC classified him as an indefinite employee. The personal travel was
               combined with official travel. During an intenriew, the Director stated that he
               had spoken to the LSC Comptroller about some of the personal trips to
               Denver and had been told that the airfare was less expensive than returning to
               Washington, D.C. between official business. Evaluation of the fares revealed
               the difference to be de minimis. The Government contract rate amount was
               withheld fiom the Director's subsequent travel settlement for three of these
               personal trips.

       o       The Director of OPS. In late April 1995, the Director combined personal
               travel with official travel on one occasion. Travel was at the Government
               contract rate, with tickets purchased by the Corporation from Omega. As of
               June 7, 1995, the Director of OPS's travel expense report for this travel was
               not processed. According to the Corporation's travel office, the Director of
               OPS is to reimburse the Corporation $266 for the personal portion of the
               $1,087 airfare. The LSC travel office confirmed that the Director's personal
               portion of the trip was purchased at the Government contract rate, contrary
               to the provisions of the MOU.

Recommendation 6. The Corporation evaluate and revise its internal control structure
over employee personal and official travel to ensure compliance with the LSC-Omega
Memorandum of Understanding and other applicable laws and regulations.

Management Response. "Management disagrees with the Report's conclusion in Point 1 of
Finding E that Government contract rates were used for personal travel as a consequence of
misclassification of indefinite employees as temporary. The trips made by the Director of
OPEAR and the Director of OPS were paid for by the Corporation pursuant to its
employment agreements with these individuals. These trips therefore were not 'personal'.
Insofar as LSC was bound to pay the fares for these trips, Management was advised by the
Office of General Counsel that it was proper, under its agreements with the General Services
Administration and Omega Travel, to use the government contract rates. Even if these
individuals were rnisclassiied for tax purposes, LSC's payment of the travel was proper and
the use of Government contract rates for the fares paid by LSC was also proper.

Finally, with respect to the second point raised by the Report, Management agrees that
Government contract rates should not be used when an LSC employee combines personal and
business travel or when an employee makes a purely personal trip. In a few instances an
employee was permitted to use contract rates for personal travel and to reimburse LSC on
that basis. This should not have happened and, as set forth in recommendation 6,
Management is reviewing its internal procedures to ensure that these lapses do not recur.''
OIG Comment. Management takes the position that a trip paid for by LSC pursuant to an
employment contract, even ifthe travel was personal in nature, is official travel. LSC cannot
make a personal trip official simply by deeming it so. Otherwise it could bind itself to pay for
all nature of employee personal travel and allow such travel at Government contract rate in
violation of the MOU with GSA and the GSA contract with air carriers. Moreover, the
Director of OPEAR's employment contract expired in mid-July 1994 and LSC was not bound
to pay his travel thereafter.
RECOMMENDATIONS

Recommendation 1. The Corporation provide no benefits that are not expressly authorized
                  by the Personnel Policy Manual or Administrative Manual.

Recommendation 2. The Corporation review and revise its personnel and administrative
                  policies related to employee benefits to reflect current withholding and
                  reporting requirements under the Internal Revenue Code.

Recommendation 3. The Corporation determine the amount of unreported compensation for
                  its employees and contractors and make appropriate payments to the
                  Internal Revenue Service.

Recommendation 4. The Corporation review its practices with respect to classification of
                  independent contractors to ensure that such practices comply with the
                  Internal Revenue Code and the Corporation's policies.

Recommendation 5. The Corporation develop and implement a frequent flyer benefits policy
                  which will avoid conflicts of interest or the appearance thereof.

Recommendation 6. The Corporation evaluate and revise its internal control structure over
                  employee personal and official travel to ensure compliance with the LSC-
                  Omega Memorandum of Understanding and other applicable laws and
                  regulations.
APPENDIX I
Objectives

1.    To determine whether consultants were properly classified under relevant sections of the
      Internal Revenue Code.

2.    To determine total 1994 payments to, for and/or on behalf of the transition team.

3.    To verifl that 1099s were appropriately issued to individuals and filed with the IRS (and
      included all payments).

4.    To v e e that individuals under contract did not receive employee benefits such as health, life,
      dental insurance, retirement contributions, vacation, eligible leave, sick leave and personal
      leave.

5.    To identlfy and quantlfy any inappropriate payments to individuals under contract.

6.    To identifl and report all noted instances of violations and potential violations of laws,
      regulations and policy (fiaud, waste, abuse or mismanagement) to the Board of Directors.
APPENDIX If
The inspection covered the period of January 1,1993 through March 30,1995 and included payments
to, for andlor on behalf of the following individuals: 1) LSC President, 2) Executive Vice President,
3) Director of OPEAR, 4) Assistant to the President, 5) Special Assistant to the President, 6 ) two
contractors, and 7) the Director of OPS.



We reviewed applicable LSC policies and procedures and Federal laws and regulations to determine
the requirements for payments to, for andlor behalf of the transition team.

We reviewed the relevant laws and the Internal Revenue Code to determine required treatment for
payments to, for or on behalf of the transition team and to determine if LSC complied with relevant
laws, the Internal Revenue Code, and regulations.

We reviewed memoranda from the Corporation's General Counsel and correspondence from outside
law firms contracted by the Corporation to opine on the Federal income tax treatment of certain
travel and living expenses paid by the Corporation on behalf of certain members of the transition
team.

We examined all the travel expense reports (TER) and supporting documentation submitted by the
transition team and arrayed the information to determine travel related payments made by LSC to,
for or on behalf of the transition team.

We reviewed records of Omega Travel Corporation for transition team travel to determine the
reliability of Corporate records.

We reviewed the employment and consultant contracts of the transition team to document when
members of the transition team became employees of the Corporation.

We analyzed time and attendance records of the transition team and compared to TERs to ven&
transition team accountability.

We interviewed certain members of the transition team for information regarding employment
contracts, benefits, etc.

We interviewed the Corporations' comptroller and accounting manager for clarification of expenses
submitted to LSC for reimbursement by the transition team.

On a limited basis, we reviewed the Corporation's internal policies and procedures comprising the
internal control structure for employing, contracting and payments to, for or on behalf of the
transition team, to determine the vulnerabilities, if any, in (1) LSC's travel policy with respect to the
ordering and payment of airlinelrail tickets and the renting of cars purchased through Omega travel
services; and (2) LSC's Administrative policies that might affect the payment of salaries, benefits,
allowances, fees, services, and related expenses.

We compared procedures performed by Corporate personnel to procedures prescribed in the
Corporation's manuals to determine whether the controls in place were in operation and effective.

We subpoenaed and reviewed certain information fiom United Airlines regarding frequent flyer
benefits.
APPENDIX III
   -     LEGAL SERVICES CORPORATION
                                         MEMORANDUM


TO:            Jerome Rodgers
               Senior Auditor

FROM:          Renk L. Szybal -    C
               Assistant Inspector General - Legal Review

DATE:           July 7, 1995

RE:             Contract Service and Related Expense Payments Inspection --
                Review of Legal Issues Raised by Certain Fringe Benefits


This memorandum' provides the results of a review of legal issues raised by LSCfspayment, during
the period January 1994 to March 1995, to members of the transition team, and other senior
managers hired under contract during this period ("transition team"), of certain fiinge benefits not
available under the LSC Personnel Policy Manual. The benefits that have been identified for review
are:

 1.     reimbursement for the cost of travel between Washington, D.C. and a home located outside
        the Washington area, and for the cost of lodging while in the Washington, D.C. area. These
        benefits were provided to five members of the transition team.

 2.     payments for maintaining health insurance outside of LSC's health insurance plan. This
        benefit was provided to three members of the transition team.

 3.     reimbursement for child care and housekeeping costs. This benefit was provided to one
        member of the transition team.

 4.     a paid parking space in the garage in the building housing the LSC headquarters. This benefit
        was provided to one member of the transition team.




        h he Table of Contents for this memorandun is attached.
SUMMARY

All the benefits provided were within the authority of the President of LSC. Not all of them,
however, were appropriately excluded by LSC fiom the income of the recipient under the Internal
Revenue Code ("Code" or "IRC"). The monetary value of at least a portion of the following should
have been reported as compensation to the individual involved, and LSC should have withheld and
deposited the appropriate amounts for income and employment tax purposes:

         1. Travel to and from a home outside of, and lodging in, the Washington, D.C. area                           -
                                           -
             a) Director of OPEAR At the point in time at which there was a realistic expectation
             that the employment of the individual appointed as Director of LSC's Office of Program
             Evaluation, Analysis and Review (OPEAR) was permanent or of indefinite duration, the
             costs of his lodging in Washington, D.C. and of his travel between Washington, D.C. and
             his domicile in Denver, Colorado would no longer have been deductible by him as
             business expenses, and, therefore, were no longer excludible from his income by LSC.
             Based on the facts, the latest that this occurred was July 16, 1994. Amounts paid for
             these purposes after that date were, and should have been treated as, income to the
             Director of OPEAR in calendar year 1994.

             b) Assistant to the President - At the point in time at which there was a realistic
             expectationthat the employment of the individual appointed as Assistant to the President
             of LSC was permanent or of indefinite duration, the costs of his lodging in Washington,
             D.C. and of his travel between Washington, D.C. and his domicile in Boston, MA. were
             no longer excludiile &omhis income as deductible business expenses. Based on the facts,
             the latest that this could have occurred was on January 5, 1995 when, according to this
             employee, he accepted an offer of permanent employment. Amounts paid for these
             purposes after that date, to the extent not excludible fiom income as relocation expenses,
             are, and should have been treated as, income to this individual in calendar year 1995.

                                      -
             c) Director of OPS There was a realistic expectation that individual appointed as the
             Director of LSC's Office of Program Services (OPS) would remain in that position
             permanently or for an indefinite duration when she started work at LSC in January 1995,
             at which time LSC became her principal place of business. The costs of her lodging in
             Washington, D.C. and of her travel between Washington, D.C.and her domicile in
             Alabama, therefore, would not have been deductible to her as busiiess expenses in
             connection with either a temporary job or a secondary job. They were, therefore, not
             properly excludible &om her income by LSC. All such expenses paid by LSC, are and
             should be treated as, income to the Director of OPS in calendar year 1995.~



          %he expense of traveling back to Alabama in co~lnectionwith business there, however, is likely to be deductible
to this Director on her personal tax return as a business expense in connection with a second job.
       2. Pavments for outside health insurance.

Under section 106 of the Internal Revenue Code, employer-paid premiums for accident or health
insurance are excludible fiom employee income, Under a 1961 Revenue Ruling, employer payments
for health insurance premiums made directly to employees are excludible only to the extent that the
employer requires an accounting to insure that such insurance is in force and that the premiums are
being paid by the employees. LSC provided payments earmarked for insurance reimbursement
directly to three employees without requiring proof that health insurance premiums had, in fact, been
paid by those employees. In two instances, however, LSC nonetheless received sufficient proof to
ascertain the existence and payment of external health insurance, and it is reasonable to conclude that
in those two instances - the reimbursements received by the Director of OPEAR for 1994 and the
Assistant to the President for February 1994 -- the payments were excludible fiom income under
section 106. In all other instances, however, the required proofs were not obtained and the
reimbursement would not appear to be properly excludible from income under the law.

        3. Reimbursement for child care and housekeeuing costs.

Child care and household expenses, unless provided under an employer's plan in accordance with the
Code, are non-deductible and non-excludible personal expenses. All amounts paid to one of the
consultants for such purposes were compensation to her in 1994 and should have been treated as
such. Because this consultant was an independent contractor rather than an employee, LSC would
not have been required to withhold payroll and income taxes from this amount.

        4. Paid Parking:Suace

The amounts LSC has paid and continues to pay for the parking space of LSC's Executive Vice-
President are properly excludible fiom her income under the Internal Revenue Code.

DISCUSSION

I.      Was the Provision of these Benefits In Accordance with Applicable Laws?

Providing through contract for the payment of the benefits listed above did not violate any applicable
law, regulation or policy. Although most of these benefits were not provided for by the LSC
Administrative or Personnel Policy Manuals, or any other documented LSC policy, they do not
appear to have been expressly prohibited by LSC policies. The President of LSC, as Chief Executive
of the Corporation, with authority to manage the Corporation's day-to-day affairs, has the power to
authorize expenditures for purposes related to the statutory business of LSC. AU of the payments
under review were dciently related to LSC's statutory purposes to place them within the scope of
expenditures that may be lawfblly approved by the President. Payments for these benefits were,
therefore, legally authorized.

The fact that LSC had the legal authority to provide these benefits, however, does not mean that the
actual payment of these benefits was done in a manner which complied with applicable LSC policies
or with tax laws. It appears that, in some cases, the value of the benefits was not appropriately
reported to the individual involved or to the Internal Revenue Service ("IRS") under the Code. In
no instance did LSC treat the value of these fringe benefits as compensation to the employee or
contractor involved. While exclusion fiom compensation was appropriate in most instances, it was
not, as discussed below, appropriate in all.3

IL Was the Value of the Benefits Properly Excluded From Compensation for Tax Purposes?

     A. Excludibility From Income, Generally

Except as otherwise specificallyprovided in the Code, gross income means all income from whatever
source derived, including compensation for sexvices, which includes the value of fringe benefits. IRC
3 61(a)(1).~Items specifically included in income are covered in part I1 of the Code, section 71 and
following, and items specifically excluded fiom income are covered in part III, section 101 and
folowing. R C 0 6 I@).

As a general rule, then, the value of a fiinge benefit provided in connection with the performance of
services is includible in gross income as compensation, unless specifically excludible under a Code
provision.

     B. Reimbursement for Travel Home and Lodging in Washington D.C.

          1. The Law

              a) Excludibility - Working Condition Fringe

Under section 132(a)(3) of the IRC, a f'ringe benefit which qualifies as a "working condition fiinge"
is specifically excluded &omgross income. A working condition fiinge includes the value of property
or services provided to an employee which would be deductible to the employee as a business
expense under section 162 if paid by the employee. IRC 3 132(d).' For purposes of section


        %should be noted that if the value of~     t whichsmust be included in compensationwould cause the employee's
compensation to exceed the $108,000 statutory cap on LSC employee compensation, there would be a violation of section
1005(d) of the LSC Act. 42 U.S.C. 3 2996d(d). The LSC Act does not define compensation. But under the IRC,
compensation for services includes h g e benefits. 26 U.S.C. $61(a)(l). But see, GAO Opinion B-210338 (Aug. 3 1,
1983). The statutory cap does not appear to have been exceeded here.
         4
           See also, IRC $9 33121(a) and 3306@)which dehe "wages"for Social Security, Medicare ("FICAn)and Federal
Unemployment Tax ("FUTA") purposes to mean all renumeration for employment, including the cash value of all benefits
paid in other than cash.

          'See also. IRC $5 3121(a)(2O)(FICA), 3306 @)(I 6)(FUTA) and 3401(a)(19)(income tax withholding) ("wagesn
do not include any benefit provided to or on behalf of an employee if at the time it is provided it is reasonable to believe that
the employee will be able to exclude such benefit kom income under 9 132).
132(a)(3), "employee" includes an independent contractor. 26 CFR 5 1.132- 1(b)(Z)(iv).

To be excludible as a working condition ffinge, the business expense must meet the substantiation
requirements of section 274 of the Code. 26 CFR $5 1.132-5T(a)(l)@) and ( ~ ) ( 1 ) .In
                                                                                      ~ addition, an
amount which would be deductible by the employee under a section other than 162 (or 167, which
is irrelevant here), is not a working condition fringe. 26 CFR 1.135-5T(a)(l)(ii).~

Thus, to the extent that the recipients of LSC-paid travel home and living expenses in Washington,
D.C. would have been entitled to business expense deductions under section 162 for these expenses
if they had paid these expenses themselves, LSC was correct to have excluded such amounts fi-om
the compensation of the employees and independent contractors involved. Conversely, to the extent
that these amounts would not have been valid deductions to the employees under section 162, LSC
under-reported income and, for employees, under-withheld any payroll and income taxes due.

                   b) Deductibilitv as Business Emense -- 6 162

Under section 162(a)(2) of the Code, ordinary and necessary business expenses are deductible fiom
income and include traveling expenses, which themselves include the cost of meals and lodging, while.
away fi-om home in pursuit of business. On the other hand, the cost of meals and lodging while a
taxpayer is in the location of his usual place of business, and the cost of commuting from the
taxpayer's domicile to his usual place of business are generally non-deductible personal expenses.
     IRC 5 262 ;26 CFR 5 1.262-1 (personal, living and family expenses not deductible).

A line of cases and Revenue Rulings, however, established an exception to this general rule for
taxpayers with temporary jobs away from the location of their domiciles and usual work. The
rationale is that a taxpayer should not be required to move for a temporary job and therefore, the
taxpayer's "tax home" would not be considered to have changed until such time that it is clear that


           %riefly, in order to obtain a deductionfor traveling expenses while away fiom home under 162, the taxpayer must
substantiateby adequate records or by suf€icient evidence corroborating his own statement (A) the amount of the expense,
(B) the time and place, and (C) the business purpose. IRC 5 274(d). The regulations under this section provide very detailed
guidance concerningwhat constitutes adequate substantiation under different c a c e s . See. 26 CFR 5 1.274-5T, et
seq. Where an employee incurs business expenses deductible to him under 162, he need not report the reimbursement
received as income if he is required to and does make an "adequate 8cc0untingwto his employer (as &ed in 5 1.274-
5T(f)(4)) and ifthe reimbursement equals the expense. 26 CFR 5 1.274-5T(f)(2)(i). An employee who is not required to
make an "adequate accounting" to the employer, or who does not make one although required, must submit with his tax
return the form required for claiming employee business expense deductiom, and provide the Sonnation required by the
form and by the regulations. 26 CFR 5 1.274-5T(e)(3). Independent contractors must also substantiate each element of a
reimbursed travel expense or include such reimbursements in income. 26 CFR 5 1-274-ST(h)(2).
          LSC's travel requirements, if complied with, generally seem sufficient to meet the substantiation requirements. A
review of the adequacy of the accounting provided to LSC by the employees and contractorsfor particular payments under
discussion is beyond the scope of this memorandum.

        7Sedon 119 of the Code also provides explicit authorityfor the exclusion of meals and lodging from an employee's
income, but that section concerns meals and lodging provided for the convenience of the employer on the employer's
premises and is not relevant here.
the job is permanent or, at least, of indefinite duration. See. e.g, Markey v. C.I.R, 490 F.2d 1249,
1253 (6th Cir. 1974). Thus, during the period of time that the job at the remote site is "temporary,"
the expenses of cornrnut'ig to the job area and of food and lodging while in the job area, are
deductible as business expenses under section 162.

An amendment to section 162 of the Code, effective as to costs incurred after December 3 1, 1993,
provides that "for the purposes of section 162(a)(2), the taxpayer shall not be treated as being
temporarily away fiom home during any period of employment if such period exceeds 1 year."
Energy Policy Act of 1992, P.L. No. 120-486, § 1983. AIthough the regulations of the Internal
Revenue Service ("IRS")have not yet been changed to reflect this statutory amendment, the IRS has
provided guidance in Revenue Ruling 93-86, 1993-40, 11/24/93. Under this Revenue Ruling, the
effect of the amendment is to shorten the outer time limit for temporary employment from the two
years permitted by the case law to one year.

This does not mean that all employment in a new location can be treated as "temporary" for one year;
it means only that no employment can be treated as temporary for more than one year. Within a year,
the question of whether the job is temporary is answered by reference to the relevant facts. As the
IRS explained in Revenue Ruling 93-86:

       Accordingly, if employment away fiom home in a single location is realistically
       expected to last (and does in fact last) for 1 year or less, the employment will be
       treated as temporary in the absence of facts and circumstances indicating otherwise.
       If employment away fiom home in a single location is realistically expected to last for
       more than 1 year or there is no realistic expectation that the employment will last for
       1 year or less, the employment will be treated as indefinite, regardless of whether it
       actually exceeds 1 year. If employment away fiom home in a single location initially
       is realistically expected to last for 1 year or less, but at some later date the
       employment is realistically expected to exceed 1 year, that employment will be treated
       as temporary (in the absence of factsand circumstances indicating otherwise) until the
       date that the taxpayer's realistic expectation changes.

            2. Facts, Discussions and Conclusions

None of the costs incurred by LSC to reimburse transition team members for travel to and fiom
homes outside of; and for lodging in, the Washington, D.C. area was included in the income of the
individuals involved. This treatment of the value of this fringe benefit was correct only to the extent
that the employment of each of these individualswas temporary and did not, and was not, at any time,
realistically expected to, last for more than one year. Because the answer to this question is
dependent on the facts of the individual case, each individual will be separately discussed.

               a) The Director of OPEAR

       Facts: According to LSC records, the Director of OPEAR began to travel on LSC business
at LSC expense on November 28, 1993. He was appointed director of the LSC Office of Program
Analysis, Evaluation and Review (OPEAR) and Office of Program Services (OPS), as a regular
salaried employee, on January 11, 1994.

Inconsistent with his classification as a regular employee, which is defined in the LSC Personnel
Manual as someone hired for "continuous and undetermined periods of time,"' the Director of
OPEAR was given an employment contract, dated February 2, 1994, with a tern of little more than
six months. The contract was retroactive to January 11, 1994 and had a termination date of July 17,
1994.9Under it, he was entitled to all LSC employee benefits and additional benefits not available to
the LSC worldbrce as a whole, including reimbursement for reasonable lodging in the District of
Columbia area and reasonable transportation expenses for travel between D.C. and his home in
Denver, Colorado. Under the LSC Personnel Manual, temporary employees, those hired under
contract for temporary periods of time, are not entitled to fbll employee benefits.

LSC paid per diem and hotel charges for this Director whenever he was at LSC headquarters fiom
November 28,1993 through January 1994. On February 1, 1994, LSC rented an apartment for him
in Washington, D.C. The rent for the apartment was thereafter paid directly to the landlord by LSC.
LSC also paid the travel expenses incurred by the Director of OPEAR as a consequence of his trips
home to Denver. Between November 28, 1993, and July 16, 1994, he made approximately 21 such
trips at LSC expense.

A July 7, 1994 letter from the President of LSC, to the Board of Directors stated that he had
extended an offer to this transition team member to serve as Director of OPEAR. At the Board of
Directors meeting on July 16, 1994, the President announced that this individual "has agreed to
continue on as a director of OPEAR." (Tr. p. 46.) This was one day before the expiration of this
transition team member's employment contract . When interviewed, the Director of OPEAR stated
that he could not recall the precise date on which he accepted permanent employment at LSC. He
stated, however, that it was sometime in early to mid-July 1994.

LSC continued to pay for trips home to Denver for the OPEAR Director, at government rate under
a government travel contract, through September, 1994. He made seven such trips between July 17




           h he LSC Personnel Manual recognizes three categories of employees at LSC: "regular"employees, who are
hired for "confinuousand un-ed          periodsnof time and who are eligible to receive Corporationbenefits; "temporary"
employees, who are "contractedby the Corporation usually for periods of 30,60 or 90 calendar days subject to renewal and
extension," and who are eligible only for workman's compensation, holiday pay and,to the extent he or she works in excess
of 1,000 hours in a 12-month period, enrollment in LSC's pension plan; and "consultants," who are "usuallyindependent
contractors,"who are retained "toprovide advice and opinions or for spec& projects as needed," and who are not eligible
for Corporation fiinge benefits. LSC Persormel Manual ("Pers. Man.")      at I, 3 10.

         9 ~amendment
             n        to this contract dated April 7,1994 did not m o w any provisions relevant here.
and September 25, 1994.1° LSC then paid for this Director to travel to Denver an additional seven
times between October 1, 1994 and the end of April 1995. LSC also continued to pay the rent on
his apartment in D.C. through the end of October, 1994.

         Discussion: The execution of a contract with a limited term of less than one year supports
a conclusion that the employment of the Director of OPEAR, at the outset, was realistically expected
to last for one year or less. He has remained at LSC for more than one year, however, and thus at
some point, under the law, the expectation changed to one of employment realistically expected to
last more than one year. IRC $ 162(a)(2); Rev. Rul. 93-86, supra. The facts and circumstances
indicate that the latest date on which this individual's realistic expectation could have changed fiom
one of temporary to one of indefinite employment was July 16, 1995." Because on that date it was
publicly announced that he had agreed to remain in his position at LSC indefinitely, the conclusion
is inescapable that his employment after that date was no longer "temporary" under the rulings of the
IRS.

A taxpayer's expenses for lodging in the area of, and for commuting to, his permanent place of
business are not deductible as business expenses while "away fiom home" under section 162 of the
Internal Revenue Code. "Deeply ingrained in the whole tax structure. . . is the basic proposition that
the cost incurred in traveling between one's home and business is a nondeductible personal expense."
Buccino v. Uiu'tedStates, 3 31. Ct. 658,660 (1983). See. also, Tidwellv. C.I.R, 298 F.2d 864, 865
(2d Cir. 1962);Donnelly v. C.I.R., 262 F.2d 4 11,4 12 (1959). A decision by the taxpayer to live in
a location removed from the place of business does not convert that commute to a deductible business
expense.

         Given that a taxpayer's choice of residence is based on a variety of personal
         considerations, and that his choice determines the cost of traveling to his place of
         employment, it follows that these expenses are personal to the taxpayer.

Buccino v. United States, supra at 66 1. See. also, Comm'r v. Flowers, 326 6.S. 465,474, 66 S.Ct.
250,254,90 L.Ed. 203 (1946).

To the extent that these expenses, paid by LSC, would not have been deductible to the Director of


           '%early October, 1994the Oilice of Inspector General informed LSC's Executive Vice President that it believed
LSC's continued payment for this transition team member's travel home to Denver was inappropriate. The response, dated
November 11,1994, stated that LSC had not considered travel by the Director of OPEAR between LSC headquarters and
his home to be personal travel but that "to avoid any concerns about appearance or appropriateness, the Corporation and
the employeehave agreed that, as of the date he became a regular employee, October 1,1994, LSC would no longer pay his
travel to a n d h LSC headquartas h his permanent residence in Colorado." According to LSC personnel records, this
transition team member had become a regular employee on January 11,1994. The only change reflected in the OPEAR
Director's personnel records as of October 1, 1994 was a raise in salary.

        "0bviouslY, the "realistic expectation" of indefinite employment arose at some point prior to the public
announcement of the fact that the Director of OPEAR's employment was permanent. The date on which the public
announcement was made is more certain, however, and therefore has been used as the relevant date for tax purposes.
OPEAR under section 162, they were not excludible fiom his income under section 132(a)(3) of the
Code. There appears to be no other provision of the Code under which these payments could
properly be excluded fiom income.

       Conclusion: All amounts paid or reimbursed by LSC after July 16, 1994 for the Director .
of OPEAR's lodging in Washington, D.C. and travel between LSC headquarters and his domicile in
Colorado were compensation to him which were not excludible fiom his 1994 income under the law.

              b) The Assistant to the President

         Facts: According to LSC records, the Assistant to the President became a regular employee
of LSC on January 12, 1994. Inconsistent with his classification as a regular employee, which, at
LSC, is employment for an indefinite period (Pers. Man. I 5 lo), he was given an employment
contract, dated February 16, 1994, with a term of slightly more than eight months. The contract was
retroactive to January 12, 1994 and had a termination date of September 7, 1994.12Under it, this
transition team member was to serve as Assistant to the President of LSC and was entitled to all LSC
employee benei3s and additional benefits not available to the LSC workforce as a whole. Under the
LSC Personnel Policy Manual, temporary employees, those hired under contract for temporary
periods, are not entitled to full employee benefits. The contract also stated that he would receive
reimbursement for reasonable per diem and lodging in the District of Columbia area and reasonable
transportation expenses for travel between D.C.and his home in Boston.

In an August 10,1994 memorandum to the Executive Vice President, the Assistant to the President
asked "Willwe extend the contract beyond September. Everything seems to suggest that we will.
How long?" By letter dated September 9, 1994, the term of his contract was extended &om
September 7 through November 30, 1994. By letter dated December 2, 1994, the term of the
contract was hrther extended until December 3 1, 1994.

Finally, by letter dated December 3 1, 1994, which contains an acceptance by the Assistant dated
January 4, 1995, the term of his employment contract was extended fiom January 1, 1995 through
January 11, 1995, one-year to the day fiom the start of his employment at LSC.'~Thus, according


          his    signature on August 10,1994, the Assistant accepted a replacement contract dated August 2, 1994, which
was retroactive hm July 1, 1994 to September 7, 1994, and which had the same termination date as the original contract.
None of the modifications made by this replacement contract was sigmficant for present purposes.

         13~asedon LSC records, this transition team member was originally appointed to the permanent position of
ProgramOftiax as of January 1,1995. The official personnel action form effectuating this change in his position was dated
January 9,1995. The second official personnel action form making this same change as of January 12,1995 was dated
February 6. The Assistant had requested this change in the date of his permanent appointment. In a January 25,1995
memoraudum to the Executive Vice President m t e :
        I should not have been appointed effective January 1. I accepted the offer on January 5, and began working the
        following week. I began work as a temporary employee on January 12, 1994, and we agreed that my new,
        permanent appointment should be effective on January 12. As a result of this conclusion, my contract as a
        temporary employeeneeds to be extended for January 1 through January 12. [The General Counsel] handled prior
to LSC records, the Assistant to the President became a Program Officer on January 12, 1995, the
day after his contract expired. A formal written offer of employment dated February 3, 1995 was
accepted by him in writing on February 6, 1995.

During his interview by the OIG, this transition team member stated that he had been interviewed for
the position of Program Oflicer by the Executive Vice-President and the Director of OPEAR in late
October 1994 and that the position had been offered to him in late December. He stated that the
employment had been negotiated for a time before that offer was made. He stated that, at the time
he received the offer, he had been making arrangements to return home to Boston, and decided to
think about the offer while at home. He stated that he accepted the permanent position on January
4 or 5 after he returned to LSC fiom that trip to Boston. This member of the transition team also
stated that he considered hirnselfa temporary employee until January 12, 1995, when his last contract
expired.l4

LSC began to pay the rent on an apartment for this transition team member in Washington, D.C. on
February 10, 1994, and continued to do so through February 4, 1995, when he moved out. In a
February 1, 1995 e-mail to the Executive Vice President, copied to LSC's Comptroller, he stated that
the costs of this apartment "for the month of January and the jirst four days of February, will continue
to be borne by LSC @art transition, part of my new employee in a temporary lodging under the
Manual). "

LSC also paid the travel expenses incurred by the Assistant to the President as a consequence of his
travel home to Boston. Between January 12, 1994, and January 4, 1995, he made 25 such trips at
LSC expense. In the same February 1, 1995 e-mail to the Executive Vice President noted above, this
member of the transition team stated that "My travel for the period prior to 1/12 is construed as
transition team travel." LSC also paid for three additional round-trips home to Boston, and one
additional one-way trip back to LSC, between January 7 and 3 1, 1995.


         temporary employeeneeds to be extended for January 1 through January 12. [The General Counsel] handled prior
         extensions and should be asked to take care of this one.
In a February 1, 1995 e-mail message to the Executive Vice President, this individual wrote: "My employment form will
show I commenced employment 1/12/95. I11 pass along to [the General Counsel] a request for a contract extension through
1111/95."
         These documents appear to require a conclusion that both the letter dated December 3 1, 1994 from the LSC
President which extended the Assistant to the President's contract from January 1 through 11, 1995, and that Assistant's
January 4,1995 signature an that letter, were backdated and that the December 31 contract extension was created sometime
in February 1995.

           141t appears that at least one of the reasons why the Assistent and LSC entered into an 1l-day temporary
employment contract, after he had already accepted a permanent position, may have been to pennit him to remain at the
higher salary he received as Assistant to the President for as long as possible. His compensation under his contract, at the
time it expired, was $90,000 a year. His permanent position as a Program Officer was at a salary of $85,000. In an e-mail
to the Executive Vice President on February 1,1995, the Assistant statedthat "An extension will be submitted shortly, which
will require adjustments in my pay for the first half of the month." The "extension" referred to appears to be the contract
dated December 31,1994. In additim two legal opinions on the excludibility of his travel expenses from income had been
obtained by LSC at this transition team member's request and tax consequences may have also been in mind.
        Discussion: The execution of a contract with a limited term of less than one year supports
a conclusion that the employment of the Assistant to the President, at the outset, was realistically
expected to last for one year or less. He has remained at LSC for more than a year, however, and
thus at some point, under the law, the expectation changed to one of employment realistically
expected to last more than one year. R C $ 162(a)(2); Rev. Rul. 93-86, suDra. The facts and
c i r m c e s indicate that the latest date on which his realistic expectation could have changed fiom
one of temporary to one of indehite employment was January 5, 1995, which was, he stated, the
latest date on which he accepted an offer of permanent empl~yment.'~         After an offer of permanent
employment had been accepted by this transition team member, the conclusion is inescapable that his
employment no longer could realistically be expected to be temporary.

A taxpayer's expenses for lodging in the area ofl and for commuting to, his permanent place of
business are not deductible as business expenses while "away fiom home" under section 162 of the
Internal Revenue Code.         Buccino v. United States, suvra, 3 Ct. C1. at 660. To the extent that
the expenses incurred by LSC on his behalffor lodging in D.C. and travel home to Boston would not
have been deductiile to this member of the transition team under section 162 after January 5, 1995,
they were not excludible fiom his income as a "working condition f'ringe" under section 132(a)(3) of
the Code.

There is, however, another provision of the Internal Revenue Code under which some of these
payments may properly be excludible from this transition team member's income. Under section
132(a)(6), gross income does not include any fiinge benefit which is "a qualiiied moving expense
reimbursement." A qualified moving expense reimbursement is an expense paid by the employer
which would be deductible as moving expense under section 2 17 if paid diiectly by employee. IRC
132(g). Section 217 provides a deduction for moving expenses in connection with "the
commencement of work by the taxpayer. . .at a new principal place of work" IRC $217(a). "Moving
expenses" means only the reasonable expenses of moving household goods and personal effects and
traveling fiom the fonner residence to the new one. IRC 5 217@).16 It appears that any qualified
moving expenses incurred by LSC for this transition team member in January 1995 could, under the
circumstances, be considered to be in connection with the "commencement of work." &,26 CFR
  1-217-2(a)(3).


          '5~bviously,it is Unlikely that the "realistic expectation" of indefinite employment mse at the moment that
permanent employmentwas accepted, rather than at some earlier time. The date identified by this individual as the date of
his acceptanceis more certain,however, and has therefore been used as the relevant date for tax purposes. His stated view
that he should be treated as a temporary employee for tax purposes through January 12, 1995 must be rejected For tax
purposes, it is not the date, if any, on which the employment became permanent on the records of the employer which is
relevant, but the date on which the belief that employment would be temporary changed to a "realistic expectation"that it
would last for more than one year. Clearly that happened here prior to January 12, 1995.

          1 6 ~ hStatutory
                  e        Notes to this section in the U.S.Code Annotated explain that the 1993 statutory amendments
deleted several formerlydedd'ble moving expenses including travel, meals, and lodging while in search of new residence,
meals and lodging while occupying temporary quarters in new location, and qualified residence sale and lease expenses.
The regulations implementingsection 2 17have not yet been amended to reflect the 1993 changes. The existing regulation,
however, should continue to be relevant to the extent that it speaks to provisions of the statute which were not deleted.
LSC continued to pay for this individual's lodging in the D.C. area for approximately one month after
January 5, 1995. Such lodging expenses in the area of the new place of work are not deductible
under section 217. LSC also paid for three additional round trip flights for this transition team
member fiom LSC to Boston after January 5, 1995, and one additional one-way trip fiom Boston to
D.C.Section 2 17 permits a deduction only for the cost of traveling between the old place of work
and the new one. The cost of additional trips between the two locations is not part of deductible
traveling expenses. 26 CFR tj 1.217-2(b)(4). Although payment of such expenses by LSC may have
been permissible under the relocation provisions of LSC's Administrative Manual," such expenses
would not have been deductible to this member of the transition team beyond the cost of traveling
from Boston to Washington, D.C.

    Conclusion: None of the amounts paid or reimbursed by LSC after January 5, 1995 for this
transition team member's lodging in Washington, D.C. and travel between LSC headquarters and his
domicile in Boston were deductible to him under section 162 of the Code. These amounts were
therefore not excludible as a "working condition fiinge" under section 132(a)(3). It appears,
however, that the cost of one trip fiom Boston to Washington, D.C. after that date would have been
deductible to this transition team member under section 217 of the Code and, therefore, is excludible
from his income as "a qualified moving expense reimbursement" under section 132(a)(6).

Except for the cost of that one trip fiom Boston to D.C., all amounts paid or reimbursed by LSC after
January 5, 1995 for this employee's lodging in Washington, D.C. and travel between LSC
headquarters and his domicile in Massachusetts were compensation to him which are not excludible
fiom his 1995 income under the law.

         c) Consultant 1

    Facts: According to LSC records, the fist consultant began to travel on LSC business at LSC
expense on January 28, 1994 and was hired to provide services to LSC as a consultant under a
contract dated and executed on February 9, 1994. Consistent with her classification as a consultant,
which is defined in the LSC Personnel Manual as "usually" an independent contractor, Pers. Man. I
tj 10.3, this consultant's contract did not provide her with a title at LSC, had a limited term, stated
that she was not eligible for the fiinge benefits available to LSC employees and that she was not
subject to Social Security withholding. This consultant was entitled under this contract, however,
to certain fiinge benefits not available to LSC employees and to reimbursement for lodging in the
District of Columbia area and transportation expenses for travel between D.C. and her home in
Washington State, in accordance with the Corporation's Administrative Manual. She was to be
compensated at a stated monthly rate based on days worked for LSC as shown on an LSC timesheet.


           "chapter 7 of LSC's Administrative Manual permits many relocation expenses that were deleted from Section
2 17 of the Code in 1993 and are no longer deductibleor excludible. To the extent that LSC desires to continue to reimburse
relocating employees for such expenses, it will be required to report and Ireat nondeductible amounts as income to the
employee. In addition, it apjmrsthat the "letters of a u t h ~ o nrequired
                                                                   "       by the Administrative Manual for reimbursement
of relocation expenses were not obtained in the case of this transition team member. Ad. Man. Chap. 7 $5 3,6.
The February 9 contract was retroactive to January 17, 1994 and had a termination date of April 17,
1994. Thereafter, a new contract, dated and executed on May 18, 1994, went into effect with a
termination date of August 17, 1994. LSC paid this consultant's per diem and hotel charges
whenever she was at LSC headquarters fiom January 28 through August 4, 1994. It also paid for
her transportation between Seattle and D.C. on nine occasions between January 28 and August 4,
1994. The last date for which it paid compensation to this transition team member for her services
under the May 18 contract was August 15, 1994.

    Discussion: The facts support a conclusion that this consultant's job at LSC, at the outset, was
realistically expected to last for less than one year and, in fact, lasted for seven months. There are
no hcts and circumstances, moreover, indicating that there was ever a realistic expectation that her
work at LSC headquarters would last for more than one year or be of indefinite duration. & IRC
$ 162(a)(2); Rev. Rul. 93-86, supra.

    Conclusion: This consultant's travel expenses, including the cost of transportation to her home
in Washington State and meals and lodging while in Washington, D.C. would be deductible to her
under section 162(a)(2) of the Code as business expenses incurred while away fiom home in pursuit
of temporary work. As a result, the value of these payments on her behalf by LSC was properly
excluded by LSC fiom her 1994 income as a "working condition fringe" under $ 132(a)(3) of the
Code.

        d) Consultant 2

    Facts: According to LSC records, the second consultant began to travel on LSC business at LSC
expense on January 17, 1994, and was hired to provide services to LSC as a consultant under a
contract dated and executed on February 16, 1994. Consistent with his classification as a consultant,
this transition team member's contract did not provide him with a title at LSC, had a limited tenn,
stated that he was not eligible for the f i g e benefits available to LSC employees and that he was not
subject to Social Security withholding. This consultant was entitled under this contract, to
reimbursement for lodging in the District of Columbia area and transportation expenses for travel
between D.C. and his home in California in accordance with the Corporation's established guidelines.
He was to be compensated at a stated daily rate, not to exceed 10 days a month without prior
approval, based on days worked for LSC reported on the LSC timesheet. LSC records show that
this consultant was generally paid for an average of six days a month during the time he provided
services to LSC.

The February 16 contract was retroactive to January 17, 1994 and had a termination date of April
30, 1994. Thereafter, new contracts were executed which extended this consultant's contract for one
or two months at a time." The final renewal, signed and dated November 10, 1994, extended his



          ' ' k  a 5118/94 renewal extended the contract h m 511 to 7B1/94; an 8/25/94 renewal extended it from 811 to
813 1/94; and a 9/28/94 renewal extended the contract from 911 to 1013 1/94.

                                                         13
contract through the period November 1 to December 3 1, 1994.19

LSC paid this transition team member's per diem and hotel andlor rent charges whenever he was at
LSC headquarters fiom January 17 through August 3 1, 1994. On February 3, 1994, LSC began to
pay the rent on a Washington, D.C. apartment for him. LSC also paid for his travel from LSC to his
home in California Between January 12 and December 3 1, 1994, this transition team member made
10 such trips at LSC expense. He vacated the apartment provided to him by LSC in August, 1994.
The last date for which LSC paid compensation to this consultant for his services as a consultant was
September 30, 1994.

     Discussion: The facts support a conclusion that this consultant's job at LSC, at the outset, was
realistically expected to, and in fact did, last for less than one year. There are no facts and
circumstances, moreover, indicating that there was ever a realistic expectation that his work at LSC
headquarters would last for more than one year or be of indefinite duration. See. IRC 9 162(a)(2);
Rev. Rul. 93-86, supra.

    Conclusion: This consultant's travel expenses, including the cost of transportation to his home
in California and meals and lodging while in Washington, D.C.would be deductible to him under
section 162(a)(2) of the Code as business expenses incurred while away from home in pursuit of
temporary work. As a result, the value of these payments on his behalf by LSC was properly
excluded by LSC from his 1994 income as a "working condition fiinge" under 9 132(a)(3) of the
Code.

         e) The Director of OPS

    Facts: According to LSC records, this transition team member traveled on LSC business at LSC
expense from Alabama to LSC headquarters in Washington, D.C. in October of 1994 and again in
November of 1994. On December 2 1, 1994, her hiring to fill the position of Director of the LSC
Office of Program Services ("OPS") was announced in a memorandum from the LSC President to
the Board and staff.

On January 2, 1995, LSC paid for this transition team member to travel from Alabama to the District
of Columbia where, fiom January 3 to 10, 1995, she served as the director of OPS. She returned to
Alabama on January 10 and came back to LSC on January 22 where she served as the Director of
OPS until returning to Alabama on January 28. All travel expenses for these trips, and all her lodging
and per diem expenses in D.C., were borne by LSC.

Under a contract executed by her on January 27, and retroactively effective as of January 3, this
transition team member was hired as "Acting Director of the Corporation's Office of Program
Services," "continuing until you assume the position of Director of OPS as a regular, full-time


         'YSCapparently offered this consultant another extension which would have extended his contract beyond one
year. He never executed this extension.

                                                       14
employee." The contract was to be renegotiated if she was "unableto assume the position of Director
of OPS on a regular, fbll-time basis on or about April 17, 1995."

Although it entrusted her with an important corporate position, this Director's contract classified her
has a "consultant" and treated her as an independent contractor. Consistent with her classification
as a consultant, the contract stated that she was not eligible for the fringe benefits available to LSC
employees and that she was not subject to Social Security withholding.

The Diector of OPS was entitled under this contract to continue to serve as the Executive Director
of the Legal Services Corporation of Alabama ("LSCAff),an LSC grantee, but was not to earn
compensation fiom both on the same day. The contract also entitled her to reimbursement, in
accordancewith the Corporation's Administrative Manual, for five trips between D.C. and her home
in Alabama and for meals and travel within the District of Columbia area. The OPS Director took
five such trips at LSC expense within the contract period. During the contract period, LSC also bore
the expense of her meals and lodging while in D.C. The contract stated that in view of the
reimbursable trips it allowed, this Director would not be entitled to the moving expenses permitted
by the Administrative Manual.

Under her contract, the Director of OPS was to be compensated by LSC on a daily basis, at the daily
equivalent to the rate of $103,000 per annum, for days worked as shown on the LSC timesheet. LSC
records show that she was paid at this rate for 41.07 days' work as the Director of OPS during the
contract period. During days she was paid by LSC, this Director was generally on unpaid leave fiom
LSCA and often worked for LSCA on days for which she was not paid by LSC. She was paid at the
daily equivalent to the rate of $67,500 per annum by LSCA. According to LSCA, she was paid at
this rate for 29 days' work and two holidays as Executive Director during the contract period.20

The contract of the Director of OPS with LSC was not renegotiated. She received a written offer
of employment dated April 17 for the position of Diiector, OPS, commencing April 18,1995. She
signed her acceptance of this offer on May 5, 1995. LSC records show that she became an employee
of LSC on April 18,1995. LSCA records show that she resigned her position as Executive Director
there as of April 14, 1995. She was later paid by LSCA for work as a contract employee on four
additional days in April and two in May, 1995.~'

    Discussion: The facts do not support a conclusion that this Directois job at LSC was realistically
expected to last for one year or less. To the contrary, the contract demonstrates, on its fkce, that the
parties expected her tenure at LSC to be permanent or at least of indefinite duration. See. Rev. Rul.
93-86. She was not hired under this contract to a position expected to last one year or less, but to


         %wing the contract period, this Director also received payments from LSCA for the last pay period in 1994 and
for two weeks vacation.

         his Director made an additionaI trip to her home in Alabama at LSC expense on April 23, 1995, which was
subsequent to the date on which she became a full-time LSC employee. LSC is expecting reimbursement for this trip.
a position expected to last "until you assume the position of Director of OPS as a regular, hll-time
employee." Because LSC, fiom the outset, was realistically expected to be her place of employment
indefinitely, her job at LSC cannot be considered "temporary" for purposes of section 162(a)(2) of
the Code. It was, at best, indefinite.

This does not end the inquiry, however. Although this Director's job with LSC was expected to be
of indefinite duration, she had two jobs fiom which she earned income at two different locations
during the term of the contract.

        If the taxpayer is engaged in business at two or more separate locations, the "tax
        home" for purposes of lRC fj 162(a)(2) is located at the principal place of business
        during the taxable year.

Putrum v. UnitedSW 826 F.Supp. 988,994 (W.D. La. 1993); citing, Markey v. C.I.R, 490 F.2d
1249 (6th Cir. 1974); Rev. Ru175-432, 1975-2 C.B. 60; Rev. Rul. 60-189, 1960-1 C.B. 60.
also, Rev. Rul.93-86, supra: Green v. C.I&, 298 F2d 890 (6th Cir. 1962); Ney v. United States, 171
F.2d 449 (8th Cir. 1948), cerf denied 336 U. S. 967,69 S.Ct. 940, 93 L.Ed. 1119 (1949) (taxpayer
who accepted job in Washington, D.C., which was originally expected to be temporary, but which
extended for more than three years, at which he spent most of his time, while retaining paid corporate
position and domicile in Arkansas, could not deduct expenses for travel, food and lodging in
Washington, D.C. because his job in Washington was indefinite and his expenses there were personal
rather than business expenses.)

It appears that during the contract period, this Director was transitioning out of her old job at LSCA
and into her new one at LSC. Her job at LSC was, fiom the outset, expected to be her new indefinite
or permanent place of employment. Indeed, even during the first quarter of the year, when she held
both the job at LSC and the job at LSCA, this Director worked substantially more days, and earned
a substantially greater amount for the days worked, at LSC than at LSCA "The taxpayer's principal
post of business or employment is usually the location where he carries on most of his business
activities and earns most of his income." 4 U. S. Tax Rptr. 71624.125 (1995). See. also, Markey v.
C.I.R, suura 490 F.2d at 1255. In essence, LSCA became a temporary job and LSC a permanent job
when the contract with LSC was signed. It appears, therefore, that LSC's location became the new
"tax home" of the OPS Director.

The expenses incurred by the Director of OPS in traveling to her second job in Alabama may
nonetheless be deductible to her as a business expense. She would be able to deduct such amounts
as expenses incurred in pursuit of business while away fiom home if the requirements of section 162
are satisfied. But the fact that Washington, D.C had likely become her tax home for purposes of tj
162 appears to mean that payment by LSC of her expenses of traveling to her second job in Alabama
would not be excludible from her income as a working condition fringe under section 132.

The regulations under section 132 make it clear that the business expense deduction must be
allowable to employee in connection with the emplover's business in order for payment of the expense
by the employer to be excludible fiom income as a working condition fiinge. If the expense is
deductible in connection with some other business of the employee, the employer must add the
payment to the employee's income, and the employee can claim the deduction. 26 CFR 8 1.132-
5(a)(2).=

There appears to be no other tax provision that would permit the amounts paid by LSC for this
Directois travel to and lodging in Washington, D.C. to be excluded from her income. Once again,
under the law, the costs incurred in traveling between one's home and principal place of business is
a nondeductible personal expense, and a decision to live in a location removed fkom one's place of
employment does not convert the commute to a deductible business expense. E.nL, Flowers, suDra,
326 U. S. at 474; Buccino v. United States,        3 C1. Ct. at 660-6 1.

    Conclusion: It appears, therefore, that the travel expenses of the Director of OPS, including the
cost of transportation to her home in Alabama and meals and lodging while in Washington, D.C.
would not be deductible to her under section 162(a)(2) of the Code as business expenses incurred
while away fiom home in pursuit of temporary work or in pursuit of a second job, because her job
at LSC was of indefinite length fiom the outset and Washington, D.C. appears to have become her
new "home" for purposes of section 162. As a result, the value of these payments on her behalf by
LSC would not be properly excluded by LSC fiom her 1995 income as a "working condition fiinge"
under section 132(a)(3) of the Code. To the extent that such expenses were incurred by this Director
in connection with her business in Alabama, however, she may be able to deduct them under section
162 on her income tax return.

    C. Payments For Outside Health Insurance

         1. TheLaw

Under section 106 of the Internal Revenue Code, "gross income of an employee does not include
employer-provided coverage under an accident or health plan. " IRS regulations under this section
provide that the employer may make this contribution to an accident or health plan for employees by
(1) paying the premium, or portion of the premium, on a policy of insurance covering one or more
ofhis employees, or by (2) contributing to a separate fbnd or trust which provides benefits directly
or through insurance to one or more employees. 26 CFR 1-106-1.

Although neither this statute nor the regulations under it expressly provide for the excludibility of
payments made directly to the employee, the potential excludibility of such direct payments is
implicitly recognized in the definition of "wages" for FICA and unemployment tax purposes in
sections 3 121(a)(2) and 3306@)(2) of the Internal Revenue Code, respectively. Those definitions


          ?he regulation provides a number of examplesto illustrate this section. In those examples, the payment may still
be excludible as a working condition h g e ifthe employee's work for the second employer is substantiallyrelated to the
work of, and provides a substantial business benefit to, the first employer that paid for the travel. 26 CFR $ 1.132-
5(a)(2)(ii). The situation here does not seem to fit under those illustrations.
exclude fiom the definition of "wages"

         any payment by an employer "made to. or on behalf of, an employee. . . under a plan
         or system d l i s h e d by an employer which makes provision for employees generally
         . . .or for a class or classes of his employees on account of sickness or accident
         disability or medical or hospitalization expenses.

The question of when a direct payment to the employee can be considered to be part of a "plan" or
"system"of employer-provided insurance is the focus of several IRS Revenue Rulings. In 1957, for
example, the IRS held that amounts paid directly to the employee were not excludible fiom income
because they were not payments to an insurance company, trust or h d . "

In 1961, however, in Revenue Ruling 61-146, 1961-2 CB 25, the IRS held that insurance
reimbursements made directly to employees were excludible under the facts of the case. There, the
employer paid a portion of the premiums for employees covered under the employer's group health
plan. For those employees not covered by the employeis group policy who paid the premiums for
other coverage themselves, the employer paid a portion of the premiums "upon proof that the
insurance is in force and is being paid for by the employees." The IRS found that the three methods
used to reimburse employees in that case were all equivalent to, or the same in practical effect as,
direct payment by the employer to the insurance company. The employer:

    (1) reimburses each employee directly once or twice a year for the employer's share of the
    insurance premiums upon proof of prior payment of the premiums by the employee;

    (2) issues to each employee a check payable to the particular employee's insurance company,
    the employee being obligated to turn over the check to the insurance company; or

    (3) issues a check as in method (2) except the check is made payable jointly to the insurance
    company and the employee.

Method (I), direct payment to the employee, was found to be sufficient because "proof is required
by the employer that hospital and medical insurance is in force for the employee and that premiums
for the period involved have been paid by the employee and because the employer's payment is stated
to be in reimbursement for the employer's share of the insurance premium." The earlier revenue
ruling cited above was distinguished because in that case the employer "did not require an accounting.
. .that the hnds were expended in the acquisition of insurance coverage."

In each of three subsequent authoritieswhich cite Revenue Ruling 61-146, however, it was found that
sdicient assurance that the payments were used for health insurance was not present, and Revenue


           %ev. Rul. 57-33,1957-1 C.B. 303 (payments by employer to employees, under union contract, for the purpose
of purchasing hospitalizationinsurance not excludible because they were not payments to insurance company, trust or fund;
fact that union provided assurance that no payments were used for other purposes was immaterial.)
    Ruling 61-146 was distinguished rather than followed. In Revenue Ruling 85-44, 1985-1 CB 22, the
    IRS held that payments to an individual of court awarded damages for unpaid health insurance
    premiums could not be excluded fiom income and distinguished Revenue Ruling 61-146 as requiring
    "verificationthat the premiums were actually paid" to render insurance payments made directly to the
    employee excludible. In the case before it, "there was no reimbursement of insurance actually paid
    by [the employee], nor did [the employer] ver@ that insurance was actually in force and paid for by"
    the employee.

    Similarly, in Revenue Ruling 75-24 1, 1975-1 CB 3 16, amounts paid by the employer to employees
    for the purpose of purchasing health insurance, under a government contract requiring the employer
    to provide health insurance benefits, were found to be income. The IRS explained that because the
    employer "had no legal or contractual obligation to and did not verify that the cash payments were
    actually used by the employees to purchase health and welfare benefits, the employees had complete
    disposition of the funds."

    In Adkzns v. United States, 693 F.Supp. 574 (N.D. Ohio 1988), a f d , 882 F.2d 1078 (6th Cir. 1989),
    the court held that amounts paid directly by the employer to employees in settlement of a lawsuit in
    connection with employer's termination of health insurance were not excludible from income under
    section 106. The court noted that Revenue Ruling 61- 146 had earlier been distinguished by the IRS
    as requiring employer verification of "the amounts and whether payments were actually made by the
    employee." Id at 577. It went on to state that "Section 106 clearly applies to contributions made by
    the employer to hospital, medical and accident benefit insurance programs, trusts, or funds. Section
     106 does not contemplate, nor infer, direct payments to the employee."Id.
,
    Thus,the holding of Revenue Ruling 61-146, that direct payments made by an employer to employees
    in reimbursement of health and accident insurance premiums may be excludible from gross income
    under section 106 of the Code, appears to be limited to those situations where the employer requires
    an accounting to ensure that the hnds are actually expended in the acquisition of insurance coverage.
    Under the ruling, such an accounting consists of proof that the insurance is in force and that
    premiums for the period involved have been paid by the employee.

             2. Facts

    LSC pays a share of the premiums for all employees who choose to be covered by its group health
    insurance plan. Neither that plan nor LSC's written policies pennit employees generally to waive
    coverage under that plan and receive cash fiom LSC to be applied against insurance provided by
    other employers or obtained by the employee individually. This benefit was provided by contract in
    1994 to three employees who were entitled, under their contracts, to reimbursement fiom LSC for
    amounts they paid for "employee benefits," "with the exception of dental and long-term disability
    insurance." Each of the contracts stated that "the total amount reimbursed shall not exceed the
    amount the Corporation would otherwise pay on your behalf to provide the benefits to which you
    would be entitled as a regular employee of Corporation for the purposes of LSC's Personnel Manual."
Although the contracts provided that LSC would provide "reimbursement" for amounts "paid" by
these employees, they did not require any particular accounting or proofs of payment to be provided.
Such proofs, however, were nevertheless provided in some instances.

    The Executive Vice President: The term of the Executive Vice President's contract, dated
January 27, 1994, was fiom January 3 through July 3, 1994, to continue at the pleasure of the Board
for a period not to exceed six months. Paragraph 6 of her contract provided that "you will be entitled
to reimbursement for any amounts you pay to continue the employee benefits you were receiving
from your previous employer the National Legal Aid and Defender Association" (NLADA).

The Executive Vice President received a check fiom LSC dated 3/15/94 for $1,066.14, which was
identified on the check stub as "Reirnb. of Health Ins. Prem. 1/94-3194." She received a second check
for the same amount dated 6/15/94, identified on the check stub as "Reimb. of Health Ins. Prem.
4/94-6/94.24

In addition to copies of the checks and stubs and the voucher for each of them, the file contains the
following documents relating to these payments:

    o      An invoice to the Executive Vice President dated February 28, 1994 fiom NLADA
           which showed the following: "March 1994 Insurance --Health $724.50, -Life $21.13,
           -Am. Death $4.88" for a total of "$750.5     The invoice also showed "PAST DUE
           $1,109.32" and stated "Note: Employer Contributions $554.67, Employee
           Contributions $169.83." The past due amount appears to be equal to two months of
           employer contributions.

    o      A March 9, 1994 memorandum from the LSC Bendts Administrator to the Executive Vice
           President which responded to her request for information regarding the employer
           contributions to LSC's group health plan. The memo showed that LSC paid $355.3 8 a
           month for each employee covered.

    o      A March 11, 1994 memorandum fiom the LSC Benefits Administrator to the LSC
           Comptroller forwarded "backup materials regarding health premiums for" the Executive
           Vice President and stated that pursuant to her contract, she "should be reimbursed in the


          %SC records show that the Executive Vice President reimbursed LSC $355.38 for the June reimbursement and
that she became a participant in LSC's group insurance plan as of June 1,1994.

           2%nder section 106 of the IRC, if the employer contributions are made under an insurance policy, trust or fimd
which provides other benefits m additionto accident and health benefits, the exclusion provided by section 106 applies only
to the portion of the employer'scantributionwhich is aIIocable to accident or health benefits. 26 CFR 5 1.106-1. It appears
that this may create no difficultieshere because the amount of the LSC monthly employer contributionto health insurance
is less than the NLADA monthly health insurance contribution. In addition, employer contributions to group-term life
insurance is separately excludiblefi-omgross income under section 79 of the Code if certain criteria are met. See. 26 C.F.R.
9 1.79-0, et seq.
         amount of $355.38 per month retroactively fiom January 3, 1994." A handwritten
         calculation on the memo shows that 355.38 multiplied by 3 for "Jan, Feb, Mar" is 1,066.14.
         The approval of the Comptroller is noted on the memorandum.

What these documents show is that LSC determined the reimbursement it would provide in
accordance with the terms of the Executive Vice President's contract and determined the amount of
that reimbursement based on the amount it would have paid for employer contributions for her under
its own group policy. These documents also show the amount that this transition team member
would have to pay to keep her benefits fiom the NLADA in force and show that that amount was
more than the amount of the LSC employer contribution to its health plan.

What these documents do not show is that the Executive =ce President actually paid to keep her
NLADA benefits in force. There is, for example, no cancelled check fiom this transition team
member showing payment of the NLADA invoice, nor any other document fiom which a conclusion
that she paid to keep her insurance in force could be drawn. Indeed, the past due amount on the
NLADA invoice shows that the Executive Vice President had not currently paid the amounts required
to keep her NLADA benefits in force.

    Director of OPEAR: The contract of the OPEAR Director, dated February 2, 1994, was effective
fiom January 11, 1994 until July 17, 1994. Paragraph 6 of that contract provided that "you will be
entitled to reimbursement for any amounts you pay to continue the employee benefits you were
receiving immediately prior to joining the Corporation."

This transition team member received a total of $4,685.16, identified on the check stubs as
"Reimbursements of health insurance premiums," for the period January 11, 1994 through March
1995. These payments were made at the rate of $355.38 a month in 1994 and $377.12 a month in
1995, which were equal to the cost of LSC's contributions to its group health plan for all employees.
These payments to the Director of OPEAR appear to be ongoing at this writing.

In addition to copies of the checks and stubs and the voucher for each of them, the file contains the
following documents relating to these payments:

   o     A copy of a Kaiser Permanente "Plan 950-Individual Membership Agreement 1994."

   o     A copy of an April 12, 1994 letter from Kaiser Permanente to the Director of OPEAR
         which apparently transmitted the above Plan and informed him that his membership rates
         for 1994 were "$366.60 per month" "which is automatically deducted fiom your bank
         account on the 6th day of the month."

   o     A March 9, 1994 memorandum from the LSC Benefits Administrator to the Director of
         OPEAR which responded to his request for information regarding the employer
         contributions to LSC's group health plan. The memo showed that LSC paid $355.38 a
         month for each employee covered.
What these documents show is that LSC initially determined the reimbursement it would provide in
accordance with the terms of this transition team member's contract and determined the amount of
that reimbursement based on the amount it would have paid for employer contributions for him under
its own group policy. They also show the amount the Director of OPEAR would have to pay to keep
his preexisting benefits in force in 1994 and that that amount was more than the amount of the LSC
employer contribution to its health plan in 1994. They show that this Director actually paid for these
premiums through 1994 due to his arrangement with Kaiser under which the premiums were directly
withdrawn fiom his account monthly in 1994.

What they do not show is the authority for the payment of these amounts for the Director of OPEAR
after the expiration of his contract on July 17, 1994. There is was not a document on file which
evidenced that he continued to keep this insurance in force, and pay the premiums, in 1995. F i y ,
the documents on file did not show the amount of this transition team membeis premium for the
Kaiser insurance in 1995. It is noted that the amount of the LSC reimbursement in 1995, $381.38
monthly, exceeded the $366.60 monthly Kaiser premium in 1994.

     The Assistant to the President: The contract of the Assistant to the President, dated February 16,
1994, was effective from January 12, 1994 through September 7, 1994. The termination date was
ultimately extended through January 11, 1995. Paragraph 6 of the contract provided that "you will
be entitled to reimbursement for any amounts you pay to continue the employee benefits you were
receiving immediately prior to joining the Corporation."

The Assistant received a check from LSC dated 3/23/94 for $103.46, which was identified on the
check stub as "Reimbursement of Basic Life and Health Insurance (Tufts) Premiums for 2/94." He
received three additional checks fiom LSC totalling $2,132 for the period July 1 through December
3 1, 1994.26These reimbursements were at the rate of $355.38 a month and were all stated to be either
"reimbursement" or "payment" "of health insurance premium. "

In addition to copies of the checks and stubs and the voucher for each of them, the file contains the
following documents relating to these payments:

    o      A copy of the Assistant's paystub from his prior employment for the period "2/28/94" which
           showed deductions of $100 for health insurance, $3.46 for basic life insurance and other
           amounts for additional insurance coverage. A hand written notation on the paystub
           indicates that the amounts shown are for a one month period.

    o      A March 3, 1994 memorandum from the LSC Benefits Administrator to the Assistant to
           the President which responded to his request for information regarding employer
           contributions to LSC's health and basic life group insurance plans. The memo showed that,
           for each employee, LSC paid $355.38 monthly for health insurance and $4.69 monthly for


         ?t appears that after receivingreimbursement for February, 1994, the Assistant was not reimbursed for insurance
again until July, 1994. The reimbursements then continued through the end of 1994.
         basic life insurance. Hand written notations on the memorandum show that the amounts
         shown on his paystub for dental and disability insurance would not be reimbursed because
         they are "covered here."

   o     An October 3, 1994 memorandum from the LSC Office of Human Resources to the
         Comptroller which stated that "pursuant to the terms of [the Assistant's] contract dated
         August 2, 1994, [he] should be reimbursed in the amount of $355.38 per month
         retroactively fiom July 1, 1994." The approval of the Comptroller is noted on the
         memorandum.

These documents show that for February 1994, the Assistant had life and health benefits in force
from a previous employer and that he actually paid the employee share of the premiums for that
month through a payroll deduction. They also show that LSC determined the reimbursement it paid
to him for the month of February 1994 in accordance with the terms of his contract and determined
the amount of that reimbursement based on the amount he had actually paid for those benefits that
month. The amount reimbursed by LSC for the month of February was equal to the amount the
Assistant had paid. These documents also show that LSC appears to have determined the amount
of the reimbursement made to the Assistant to the President for the months of July through December
 1994 based on the amount it would have paid for employer contniutions for him under its own group
policy.

What these documents do not show is that the Assistant had health insurance in force, and actually
paid the premiums for that insurance, for the months of July through December. They do not show
what it would have cost for him to continue his pre-existing insurance or that that amount would have
equalled or exceeded the amount of the LSC reimbursement.

         3. Discussion

The Executive Vice President received reimbursement fiom LSC for health insurance premiums in
accordance with her contract for the period January through May 1994. The Director of OPEAR
received reimbursement for health insurance premiums in accordance with his contract from January
through July 1994. He continued to receive such reimbursement after the expiration of his contract
in July 1994 to the present. The Assistant to the President received reimbursement for insurance
premiums in accordance with his contract for February 1994 and for the period July through
December 1994.

It appears that LSC did not require an accounting to show that insurance was in force and premiums
were being paid as a condition to receiving reimbursement. The facts show that LSC, nonetheless,
received evidence fiom which a conclusion could be drawn that health insurance was in force for, and
was paid for by, the Director of OPEAR in 1994 and the Assistant to the President in February 1994,
and that the amount of LSC's reimbursement did not exceed the employee's cost. It is likely, but not
certain, that the IRS would accept as sufficient the individual proofs in these instances although the
proofs had not been required by the empl~yer.~'

Beyond these two instances, however, evidence that insurance was in force and that the premiums
were being paid for by the employees is lacking. It appears that LSC determined the amount to
reimburse the Executive Vice President in 1994, the Assistant subsequent to February 1994 and the
Director of OPEAR in 1995 based only on the amount of its own contribution to premiums for its
employees without regard to the existence or payment of outside policies for these individuals. It is
unknown whether the payments made by LSC actually served to reimburse the employees for
amounts they had paid to keep health insurance in force.28

            4. Conclusion

Under the facts, there appears to have been adequate proof to verifj. that, in 1994 for the OPEAR
Director and in February 1994 for the Assistant to the President, the individuals involved had health
insurance in force and paid premiums which exceeded or equalled the amount of LSC's
reimbursement. It is reasonable to assume that LSC reimbursement of those particular insurance
costs would be excludible under section 106 of the IRC.

For the other health insurancereimbursements made by LSC, however, the Executive Vice President
in 1994, the Assistant after February 1994 and the Director of OPEAR in 1995, there do not appear
to have been adequate safeguards to insure that the insurance was (or, in the case of the OPEAR
Director, is) in force and that the payments received fiom LSC were used by the employees to
support the cost of programs in which they may have been enrolled. No accounting was required,
and there is no evidence that the fbnds were not being diverted for other purposes. It is likely that
these amounts paid by LSC as health insurance reimbursements were not excludible fiom the gross
income of the employees under section 106 of the Code.


    D.      Reimbursement for Child Care and Housekeeping Costs

            1. TheLaw


        n~'' these instances,LSC had proof that "insurance is in force and is being paid for by the employeenprior to
making the reimbursements. Rev. Rul. 61-16,a-         But see,Rev. Rul.57-33,           where the IRS, found that payments
to employees required by the employment contract "for the express purpose" of purchasing health insurance was income,
although the union assumed responsibility for making sure the payments were used for insurance and "in no instance are
payments under the contract being made or used for a purpose other than providing the hospitalization and surgical insurance
benefits."

          28~ssuming  that the employees actually paid for and had insurance in force duringthe relevant periods, LSC may
be able to obtain adequate proofk which meet the requirements of Revenue Ruling 61-146 through a retroactive accounting
requirement in order to support LSC's exclusion of these amounts fiom the income of the employees involved in 1994. It
is unknown whether such later acquired proofs would be acceptable to the IRS. LSC, if it chooses, could clear up the
uncertainty by formally seeking the advice of the IRS.
Section 129(a) of the Internal Revenue Code provides for the exclusion from employee gross income
of payments by an employer for a dependent care assistance program. "Employee" is defined so as
to include an independent contractor. IRC $129(e)(3). There are a number of requirements that a
dependent care assistance program must meet under section 129, including that it must be a separate
written plan and it must not discriminate in favor of highly paid employees. I.RC. $ 129(d). LSC has
no dependent care assistance program under section 129(a).

Unless specifically exempted by a Code provision, under the Internal Revenue Code, gross income
means all income, including fiinge benefits received as part of compensation for services. I.R.C. $
61(a)(l). Section 129 is the only section which could be found which permits employer payments
for child care and household expenses to be excluded from income. Thus, outside of a section 129
plan, payments by an employer for these purposes are part of compensation and must be included
in the income of the recipient.

Although these amounts must be included in income and are not allowable as deduction^,^^ the
taxpayer may be entitled to a tax credit under section 21 of the Code which provides a credit for
certain "household and dependent care services necessary for gainfbl employment."

           2. The Facts

Under her contract dated February 9,1994 and effective January 17 to April 17, 1994, one transition
team member was entitled to reimbursement of up to $1,200 a month for reasonable child care and
housekeeping expenses incurred by her as a result of her absence from her home.30On May 5, 1994,
this consultant received a check from LSC which included payment of $1,114.46 for housekeeping
expense reimbursements for the period January 19 to April 16 and $1,330 for child care expense
reimbursement for the period January 17 to April 16, 1994.

           3.    Discussion and Conclusion

The reimbursements to this transition team member were in accordance with the terms of her
contract. There is, however, no tax provision which would allow LSC to exclude the amounts it paid
to her for housekeeping and child care.

The $2,444.46 which LSC paid to this consultant for child care and housekeeping expenses should
have been included in her income for 1994.




         29Section262 of the Code provides: "Except as otherwise expressly provided in this chapter, no deduction shall
be allowed for personal, living, or family expenses."

        %s contxact was renewed2by an agreement dated May 18, for the period April 18 to August 17, 1994. The May
18 agreement did not include the provision for reimbursement of child care and housekeeping expenses.
    E.    Employer Paid Parking

          1. TheLaw

Under section 132(a)(5) of the Internal Revenue Code, gross income does not include any fiinge
benefit which qualjfies as a "qualified transportation h g e . " A qualified transportation f h g e includes
"qualified parking," which is parking which does not exceed $155 a month, and is provided by the
employer to the employee at or near the business premises of the employer. I.R.C. $$ 132(f)(l)(C),
(f)(2)@) and (9(5)(C).

          2. The Facts

The Executive Vice President's January 1994 contract did not provide for her to receive LSC-paid
parking. The contract expired in July 1994 and the Executive Vice President has remained at LSC
as an employee under the Personnel Manual. LSC began to pay for a monthly parking spot for her
in February 1994 and has continued to pay for this parking spot since that time. The parking spot
is located in the garage of the building which houses LSC's headquarters. The fee for this parking
is $120 monthly.

         3. Discussion and Conclusion

There is no documented authorization for LSC's payment of this fiinge benefit. The arrangement,
however, meets the requirements of section 132(a) and (0 and therefore qualifies as a "qualified
transportation fiinge," rendering the amounts LSC has paid and continues to pay for the Executive
-ce President's parking space properly excludible fiom her income under the Internal Revenue Code.
                                                  TABLE OF CONTJZNTS

SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

DISCUSSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

L Was the Provision of these Benefits In Accordance with Applicable Laws . . . . . . . . . . . .3

IL. Was the Value of the Benefits Properly Excluded From Compensation for Tax
    Purposes?. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

      .
     A Excludibility From Income, Generally . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . - 4

     B. Reimbursement for Travel Home and Lodging in Washington D.C. . . . . . . . . . . . . 4
                   .
                 1 TheLaw . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
                    a) Excludibility -- Working Condition Fringe . . . . . . . . . . . . . . . . . . . . . . . . . . 4
                    b) Deductibility as Business Expense -- 5 162 . . . . . . . . . . . . . . . . . . . . . . . . . 5
                 2. Facts, Discussions and Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . - 6
                    a) The Director of OPEAR
                            Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
                            Discussion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                            Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
                    b) The Assistant to the President
                            Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
                            Discussion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                            Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                    c) Consultant1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                    d) C o d t a n t 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                    e) The Director of OPS
                            Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                           Discussion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . IS
                            Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

     C. Payments For Outside Health Insurance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             17
                   .
           1 TheLaw . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 17
           2. Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          19
           3. Discussion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             23
           4. ConcIusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             24

      .
     D Reimbursement for Child Care and Housekeeping Costs . . . . . . . . . . . . . . . . . . . . 24

     E. Employer Paid Parking                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
APPENDIX IV
   -         LEGAL SERVICES CORPORA TION

                                          MEMORANDUM


TO:              Jerome Rodgers
                 Senior Auditor            A




FROM:            Renee L. Szybal
                 Assistant 1nspect6r General -- Legal Review

DATE:            July 7, 1995

RE:              Contract Service and Related Expense Payments Inspection
                 Employee vs. Independent Contractor


       This memorandum provides the results of a review of the characterization as independent
contractors of certain individuals who provided services to LSC pursuant to contract during the
period January 1994 to March 1995. Of the three individuals who were treated as independent
contractors, one, the Director of the Office of Program Services (OPS), was incorrectly classified.


I. The Law
          Emulover responsibilities - Under the Internal Revenue Code, 26 U.S.C. ("IRC" or "Code"),
every individual who performs work for another is either an employee or an independent contractor.
A correct characterization of the employment relationship is necessary in order for the employer to
fulfill its responsibilities under the Code. The employer, generally, must withhold and pay Social
Se-curity and Medicare ("FICAN)andincome taxes and pay unemployment taxes ("FUTA") on wages
paid to an employee.' These responsibilities all wry tax return filing requirements. An employer may
also have to make deposits of the Social Security, Medicare and income taxes withheld before the
return is due.

      On the other hand, an employer does not generally have to withhold or pay any taxes on
payments to an independent contractor. Improper classi£ication of an employee as an independent

         1
                  IRC $8 31 11 (FICA liability); 3301 (FUTA liability); 3402 (income tax withholding); 3403 and 3501
(liability for amounts withheld and due under FICA, FUTA and income tax provisions).
contractor, therefore, will lead to failure to properly withhold and deposit taxes and fde returns due
and may carry serious c~nsequences.~

        Common law -- Whether an individual is an employee for employment tax purposes is
generally determined under common law rules. E.lz., IRC $ 312l(d)(2).~Guides for determining the
status of a worker as an employee or contractor are found in three substantially similar sections of
the employment tax regulations. 26 CFR $ 31.312l(d)-1 (c); 3 1.3306(i)- 1; and 3 1.3401(c)- 1.

         These sections provide that generally the relationship of employer and employee exists
         when the person or persons for whom the services are performed have the right to
         control and direct the individual who performs the services, not only as to the result
         to be accomplished by the work but also as to how it shall be done. In this
         connection, it is not necessary that the employer actually direct or control the manner
         in which the services are performed; it is sufficient if the employer has the right to do
         SO.

         Conversely, these sections provide, in part, that individuals (such as physicians,
         lawyers, dentists, contractors, and subcontractors) who follow an independent trade,
         business, or profession, in which they offer their services to the public, generally are
         not employees.

         Finally, if the relationship of employer and employee exists, the designation or
         description of the relationship by the parties as anything other than that of employer
         and employee is immaterial.

Rev. Rul. 87-41, 1987-1 CB 296.

        Revenue Ruling 87-41, suDra, provided M h e r guidance through the identification of 20
factors, distilled from cases and rulings, relevant to the question of whether sufficient control is
present to establish an employer-employee relationship. An IRS summary of that list is attached as
Attachment 1. The 20 factors are guides only and the importance assigned to any factor depends on
the occupation and factual context in which the services are perfonned. None of the factors alone


           2~ncorrectclassification of an employee as an independent contractor, which does not have a reasonable basis under
Internal Revenue Service rules, will result in employer liability for employment taxes for that individual and increased
liability where reportingqubmmtshave been w U d l y disregarded. IRC § 3509. Such improper classification may also
subject the employer to liabilityfar penalties. Failure to make a required withholding tax deposit, for example, subjects the
employer to penalties of from 2 to 15% of the underpayment, unless the underpayment was due to reasonable cause. IRC
$6656. A monthly penalty of 112 to 25% of the tax due applies to failure to pay withholding taxes. IRC $ 6651. Willful
failure to withhold employment taxes hthe wages of an employee subjects an employer to an additional penalty of 100%
of the taxes that should have been withheld and paid. IRC 5 6672.

          3certaintypesof workers are specificallytreated as employees by statute, regardless of the common law rule. Any
officer of a corporation, for example, is a statutory employee for Social Security purposes under 26 IRC $ 3121(d). The
workers under consideration here are not covered by a statutory employee definition.
is controlling and all are unlikely to be relevant in any given situation. Application of the factors
should not obscure the substance of the relationship, "that is, whether the person or persons for
whom the services are performed exercise sufficient control over the individual for the individual to
be classified as an employee." Id. In doubtfi.11cases, the IRS will determine the nature of the
relationship upon the filing of a Form SS-8, Deferminationof Employee Work Sfatusfor Purposes
of FedeaZ Employment Taxes arzdhcome Tax WifhhoZding.

         Statutory "safe harbor" provisions -- Under current law, the employer is protected fiom
liability for employment taxes if:

        o        the employer has a "reasonable basis" for treating the worker as an independent
                 contractor;
        o        the employer has not treated the worker as an employee for employment tax purposes
                 in any period; and
        o        neither the employer nor the employer's predecessor have treated an individual
                 holding a substantially similar position as an employee for employment tax purposes
                 for any period after 1977.

An employer has a "reasonablebasis" for the decision to treat a worker as an independent contractor
if it relies on (1) judicial precedent, published rulings, or a technical advice memorandum or letter
ruling issued to the taxpayer, (2) a past IRS audit on any tax issue in which there was no employment
tax assessment for substantially similar workers; or (3) long-standing industry practice. Rev. Proc.
85-18, 1985-1 CB 518.~

IL Facts
        Three members of the transition team were treated as independent contractors by LSC. The
contracts for two of these individuals classified them as independent contractors; were for limited
terms; did not provide them with titles at LSC; made them ineligible for the usual LSC employee
benefits; and stated that they were not subject to Social Security withholding. Under these contracts,
these two consultants were not to perform any of the ongoing tasks required by LSC in the
performance of its statutory responsibiities. Rather, they were to "assist with the Corporation's
transition by providing such professional services as may be requested." Thus, on their face, the
contracts of these two transition team members raise no questions, and the decision to classii them
as independent contractors appears to have been a reasonable one.

        The contract of the Director of OPS was similar to the contracts of the other two consultants
in certain respects. For example, it classiiied her as an independent contractor, made her ineligible
for the usual LSC employee benefits, and stated that she was not subject to Social Security


               ~evenueprocedure implementedthe provisions of section 530 of the Revenue Act of 1978. See, also, 15
United States Tax Reporter 7 86,502, citing,section 530 of the 1978 Revenue Act (P.L. 95-600), as amended by section
9(d) of P.L. 96-167(1979), section 1 of P.L. 96-541 (1980), and section 296(c) of P.L. 97-248(1982).
withholding. But the contract and situation of the Director of OPS also differed fiom that of the
other two consultants in ways that are sigdicant and that raise questions about the reasonableness
of her classification as an independent contractor.

        Under her January 27, 1995 contract, which was effective January 2, 1995, this consultant
was hired as "ActingDirector of the Corporation's Office of Program Services." The Director of the
Office of Program Services ("OPS") is a long-standing and important position within LSC senior
management. In addition, the contract appeared to contemplate that this individual would retain the
position of Director of OPS on an indefinite basis. It stated that she would retain the "acting" title
"continuinguntil you assume the position of Director of OPS as a regular, fill-time employee." The
contract was to be renegotiated if this individual was "unable to assume the position of Director of
OPS on a regular, hll-time basis on or about April 17, 1995." The Acting OPS Director was entitled
under this contract to continue to serve as the Executive Director of the Legal Services Corporation
of Alabama ("LSCA"), an LSC grantee, but was not to earn compensation fiom both on the same
day. When interviewed by the OIG, LSC's Executive Vice President stated that the decision to
classiq the Director of OPS as an independent contractor was based on the advise of the LSC
General Counsel and others.

        The facts disclose that another member of the transition team had been serving as the Director
of OPS, as well as the Director of LSC's Office of Program Evaluation, Analysis and Review
("OPEAR"), under a contract effective fiom January 11 until July 17, 1994. He was treated as an
employee by LSC for employment tax purposes during the term of this contract. His acceptance of
the position of Director of OPEAR on an indefinite basis was announced on July 16, 1994.

        LSC posted to fill a vacancy in the position of Director of OPS on September 30, 1994. The
Position Announcement (Attachment 2, hereto) stated that the Director of OPS is "[ulnder the
general direction of the Executive Vice President." It described the duties of the Director as including
participation "as a part of LSC Senior Management" in LSC policy issues; review and approval of
personnel actions affkcti.ng the staff members of OPS; development of internal operating procedures
for OPS; and development and oversight of the OPS operational and program budget. The individual
hired had formally applied under this announcement on its closing date, November 15, 1994. In a
December 21 memorandum to the Board ofDirectors and st&ofLSC, the LSC President stated that
he was "pleased to announce the hiring of [this individual] as the new Director" of OPS.

        Thereafter, this individual served as the Director of OPS. She signed and received documents
as the director of OPS, gave reports as the Director of OPS and received information as the Director
of OPS. Her contract with LSC was not renegotiated. She received a written offer of employment
dated April 17 for the position of Director, OPS, commencing April 18, 1995. She signed her
acceptance of this offer on May 5, 1995. LSC records show that she became an employee of LSC
as of April 18, 1995. During an OIG interview, the Executive Vice President, stated that there was
no significant change in this individual's duties, or in LSC's supervision of her as of the day she
became an employee.
a Discussion
        This individual's title and job description as the Director of OPS entrusted her with
supervision of important corporate functions. Under most of the 20 IRS factors which could be said
to apply to these facts, the OPS Diector was an employee of LSC l?om the beginning of her contract.
For example, LSC had the right to control her activities; her services were hlly integrated into the
business of the Corporation; and were to be rendered personally; she could not personally hire and
pay her assistants, and the workers she supervised were employees of LSC; a continuing relationship
was contemplated; she worked on LSC's premises with LSC materials; she could not make a profit
or loss based on her LSC activities; and she did not offer services to the public. See Attachment 1.

        In such circumstances, the classiication of this Director's status as an independent contractor
in her contract is immaterial. Rev. Rul. 87-41, supra. It thus appears that she was an employee
during the term of her contract and must be treated as such unless LSC can take advantage of the
"safe harbor" provisions of the law.

         It does not appear that LSC can meet any of the three tests that must be met in order for it
to take advantage of the provisions that would it excuse it fiom paying employment taxes for the
Director of OPS. First, it does not appear that LSC had a "reasonable basis" for treating her as an
independent contractor, because its decision to do so was not based on judicial precedent, published
rulings, an IRS letter to it, a past IRS audit, or long-stand'mg industry practice. Second, LSC treated
this individual as an employee after her contract expired although her duties were indist'iguishable
from what they were while she was treated as a contractor. Finally, LSC has always treated the
Director of OPS as an employee. Indeed, it treated this individual's immediate predecessor as an
employee although he held the position on a temporary basis. See. Rev.Proc. 85-18, suDra.

HI. Conclusion
       This Director was an employee during the term of her contract and must be treated as such
for employment tax purposes by LSC.
                                        THE TWENTY COMMON LAW FACTORS
                                  USED TO DETERMINE A WORKER'S CLASSIFICATION



                                                                         9) Work done oa premises An emp(oyee
                                                                                                                             -
                                                                           . usuallywprksonthepremisesofanem
                                                                               p(oyec.orwocksmarouteocatalocation
                                                                               designated by an employer-
                                                                         19) order or sequence set ~n &pkyx
                                                                               may be f-ed     to perform-ces     m
                                                                               theorderor~ncesetbyanem-
                                                                               ptoyer. This shows'that the employeeis
                                                                               subject to diecth and'cmtd.          .

                              . -.
                              .
                                                                         11)   Re*      An w e e may be requid               .       '
         :
                                                                               tosubmitreporstoanempkyer.R\is
                         .- 1 ....-                                             shows that the employer -ntains-a de-
                            *=ub&lsm.rm,m
                                    cht+**My                  use              gree.of &tmL        .'
         .*      -3)hteg&tlon +i.empbyiis:&$&                  are       12) payments ~n employee is g e m z ~ ~ p a i d ,
                          ..usuaIlyhtegratedi n t o w busiiessoper-          bythehour,week,~monthAn-hdepm-
                                                                             deca~~~ltractdris~lypaldbythejob
                                                                               oronastraightcom~
.                .
         .               .:':.&~~stcows.ihatthe~eeis
                     -                     .
                                 td.duection-and qmb& .' .


                                                                         14) TO& and m a t & ~ An e@oyee is
                                     . .   .                                   n0rmaUyfumishedsignificant~~
                           ti& asslsta~ts.~n &pwge
                         q.-                                W&IS               matecials.and othq equ'rpment byag
             -            '  .for an-knqbyerwho hires;-.                       -5
                         ':andpap'wrkq.An indep-Mnt con-
                         ;. :tiactor && hire. supennse,
                                                                         15) investment An -cndependentcontractof
                                                    "   a3doayas-
                             ,&an& uri+$a contradthat iequires               has a signifmntIcahvedmmt
                                                                                                     inthe fad&
                          '. tiiqw                rnaterkitsand tabor
                                                                            . tiesheorsheusesinped-ngservioes
                            . a d tci~req%mWontyforthe.result                  for someone else.
     .    6) ~&!inuing rehtlonsfripP    A* employee
             generally has a continuiw rdatipnshii
    . ..                 : 'w
                  an &pl&er.- A oorrtinuiiy relatipn-                    17) Works formore than one person or
        .   'shii,maye~evenii~Lsperfor?-~ed                                  fimr An krde(>ecrdentmtractor       is gener-
           :-at iearrring althbugh irregribr 9tetvats. '                     ally free to provide his or her secvices to
                         7) set hours of wod. A A ~ empioyix usually           ~ormoreuruektedpersocrsixfirmsat
                          '. hak set h~   of work estabiistkdby an             the same'time.
                             Gmployer. 4n idwen&U COC\tmcto(
                             +myally can set h ' i s ,hetpwn
                                                      ~      work              independentatra&ixmake~~&h€f                      '       .
                             hours. .                                          secviaes available to the general pubk                    -
                         8) t%/l-t;me required. An ernloy+ may be                                                                        '
                                                                         19) Right to fire. An employee can be.fired
                           . .requir& lo work oc b@availablefill(-time
                                                                             by an employer. An independentm~ac-
                            -Thisindicates controfby Me efnployer. An
                              dependent contract@can work when               tor cannot be fired so long as he or she                    '
                                                                             produces a result that meets the spedfi-
                              andfy WIWP   he or she chooses.
                                                                             cations of the wntract .
                                                                         20) flightto quit An employee can quit his
                                                                             or her job at any time without inarrringlia-
                                                                             bitity. An independentcontractor usually
                                                                             agrees to complete a specific job and is
                                                                             responsible for its satisfactorycornple
                                                                             tion. or is legally obligated to make good
                                                                             for failure to complete it.
  I
        LEGAL SERVICES CORPORATION
                   POSITION ANNOuNCEMErn
                      EXTERNAL POSTING

POSITION.. Director                                     POSTING NO.: ,#1044

LOCATION: Office of Program Services                    DATE POSTED:09/30/94
          Legal Services Corporation
          750 Fit Street, NIE,11th FL                   DATE CLOSED: 11115194
          Washington, D.C 20002-4250

SALARY CLAssTmCA%ON: Unclassified



The LRgal Services Corporation is seeking a Director for its Office of Program Services.
Under the general direction of the Executive =ce President, the Director is responsible for
planning and implementing research and initiatives related to the effective delivery of legal
services to the poor, and evaluatkg the results. Areas of focus will include, but not be
limited t o national and state support, private attorney involvement and dient engagement
The Director in cooperation with other appropriate divisions will assist in the dissemination
of the results of its research and initiatives and their adoption in the delivery system, as
appropriate.

DUTIES AND RESPONSII3ILm:
        o      Participates as paxt of LSC Senior Management to adopt LSC policy and
               make reoommendatiom and presentations to the LSC Board of Directon
                                             4
               regarding policy issues.

        o      Oversees the developmenf implementation and evaluation of projects related
               to the delivery of legal services.

        o      Makes recommendations and authorizes expenditures for grant awards related
               to delivery research initiatives.

        o      In cooperation uith other division managers, assesses the resui-tsof deliver)i
               research a d initiatives and promotes their implementation in the deliueq
 .
*I
     '
     '"
          -<
                                                                                                         _        ...       :.   .
                    .   .




                                                                                                              .       .. ..
                                                                                                                  . ., ..   .- sf-
                            o   Reviews and approves personnel actions affectingstaff members of the Offie        ;           . ... .
                                                                                                                        :..., ..*>.? -
                                of Program Services. Develops internal operating policies and.proceduresfor
                                office operations.

                ,               Develops and oversees the operational and program budget for the Office of
                                Program Services.




           A law degree and eight (8) years of experience in the delivery of legal services to low-
           income persons.


           SALARY AND IBENEFTT3

           Salary dependent upon qdScations and experience, plus an attractive benefits package.

               APPLICATION PROCEDURE:

               Please submit a detailed chronological resume (non-returnable), including current salary by
               November 15,1994 to:

                                                  Legal S e ~ c e Corporation
                                                                  s
                                           Office of Human Resources/EO (#1044)
                                               750 F i t Street, N.E9 11th Floor
                                                Washington, D.C. 20002-4250

                                         AN EQUAL OPPORTUNlTY EMPLOYER

                        If a &sonable accommodation in the application process is needed,
                                 please notiFg the Ofice of Human Resources/EO.
                                                             4
APPENDIX V
                                                                        JUL       8 1995


 -
                                                                              '




 II LEGAL        SERVICES CORPORA TION

                                     Memorandum

To:          Edouard Quatrevaux           A
             Inspector General

From:        Alexander D.
             President

Date:         July 18,1995

Re:           Transmittal of Management Response to Report


       Attached please find Management's Response to OIG Report No. 95-056, as provided to
us on July 14, 1995.
             MANAGEMENT RESPONSE

                     to
       OIG INSPECTION REPORT NO.   95-056

"CONTRACT SERVICE AND RELATED EXPENSE PAYMENTS"
                             troduction
     LSC Management is gratified that the Inspector
General's     Report    concludes         that    the    contractual
arrangements with members of the transition team were not
unlawful or otherwise improper,
     The bulk of the Report considers technical issues of
internal policy and procedure and tax withholding and
reporting requirements.      At its meeting on July 14, 1995,
LSC1s Board of Directors directed Management to consider
the Report's recommendations and take appropriate action.
     With     regard   to    the       specific   question   of   the
taxability of the benefits at issue, Management will
follow the I G t s interpretation and make the necessary
adjustments   .
     In     addition, Management          agrees that     in a      few
instances proper ticketing and reimbursement procedures
were not followed with regard to combined personal and
business travel, and will review its internal procedures
to ensure that such lapses do not recur.
     The following response sets forth in more detail the
position of LSC Management with respect to each of the
Report's    Findings   and    Recommendations,          including    a
description of actions already initiated in several
areas.    The Response also sets forth a number of areas in
which Management believes that the Report omits relevant
                                   2
facts and in which Management disagrees with factual
assertions.
     Finding A:     Members of the Transition Team Received
     Benefits Not Authorized in the Corporate Policies And Not
     Availabl 8 TO All L8C Employees.
     Response: Management agrees with the Reportls conclusion
     that benefits paid to members of the transition team,
     such as paid travel between home and Washington, D.C.,
     payment of medical insurance outside of the LSC plan,
     housing in Washington, and, in one instance, child care
     and   housekeeping,   were   &   unlawful   or     otherwise
     improper. 1
           With respect to the criticism of the decision to
     provide benefits beyond those authorized in written

     1
          The Assistant Inspector General - Legal Review made the
same point as the Report in even stronger terms in a memorandum
attached as Appendix I11 to the Report:
           Providing through contract for the payment of
           the benefits listed above did not violate any
           applicable law, regulation or policy   ...  The
           President of LSC, as Chief Executive of the
           Corporation, with authority to manage the
           Corporationls day-to-day affairs, has the
           power to authorize expenditures for purposes
           related to the statutory business of LSC. All
           of the payments under review were sufficiently
           related to LSC1s statutory purposes to place
           them within the scope of expenditures that may
           be lawfully approved by the President.
           Payments for these benefits was          (sic),
           therefore, legally authorized.
In footnote 3 to the memorandum, the Assistant Inspector General
states that the value of the benefits must be included in
compensation in determining whether the statutory cap set forth in
section 1005(d) of the LSC Act has been exceeded.      The General
Accounting Office has determined otherwise, however. m, Opinion
B-210338 (Aug. 31, 1983). In any event, the memorandum concludes
that I1[t]he statutory cap does not appear to have been exceeded
here.
policies to members of the transition team, the Report
does not give sufficient consideration to the business-
related reasons why the contractual arrangements were
necessary and appropriate under the special circumstances
presented.    In early December, 1993, Alexander Forger was
invited by the new Board of Directors of LSC to become
the President of the Corporation on an interim basis
while a search was undertaken for the selection of a
permanent President.   Mr. Forger's mandate from the Board
was to restore the stature and effectiveness of the legal
services program     and   to redesign the Corporation s
monitoring    function to make it more effective.       In
addition, Mr. Forger was charged with addressing LSC1s
large financial deficit resulting from prior Management's
decision to move into a new headquarters without first
renting its old offices, a decision made apparently
without objection. To accomplish this mandate, it was
essential to attract a group of senior managers who were
already highly experienced and       knowledgeable in the
delivery of legal services to low-income people.
     In the months of December 1994 and January 1995, it
was extremely difficult to find individuals who were
willing to join the transition on short notice and to
accept the positions without any guarantee of future
employment.   People whose experience and skills made them
uniquely qualified to accomplish the transition tasks
     resided outside of Washington, D.C.,        were in mid-career
     with established homes and family responsibilities, and
     could not simply pick up and move to Washington for a
     temporary, short-term assignment.        Rather than lose these
     individuals entirely, Mr. Forger determined that it was
     reasonable under the circumstances to make it possible
     for these individuals to work in Washington on a short-
     term basis.    While such arrangements were not provided
     for in the LSC Personnel Manual, Mr. Forger           understood
     that the Manual did not preclude them in the case of
     temporary employees and he was assured that he had legal
     authority and flexibility to make these arrangements
     because of the extraordinary circumstances presented.
             Management disagrees with the Report's conclusion
     that the contractual arrangements indicate "an inadequate
     control structure."    The arrangements were set forth in
     written   contracts   executed      by   each   member    of   the
     transition team; the contracts were reviewed and approved
     by the Office of General Counsel and were available to
     any LSC employee responsible for personnel administration
     or fiscal practices.       The OIG itself was able to rely
     upon   these   contracts   in   performing      its   Inspection.
    Moreover, there is no evidence in the Report that the
     arrangements were abused.*          easing apartments rather

    2
          The only suggestion of "abuse" in the Report is its
finding that members of the transition team did not file their
travel expense reports in accordance within the prescribed thirty
                                     6
     than paying      for daily hotel      lodging resulted in a
      significant savings to the Corporation. The payment of
     medical insurance outside- the LSC plan was limited so
     that there would be no additional costs to LSC and, in
      one instance, even resulted in a savings to LSC for a
     period of time.       Even LSC's payment of travel home for
     two transition employees was no more costly and far more
     efficient than if these individuals had remained at their
     homes and worked for LSC as consultants.             Finally, as
     noted in the Report, the President waived all benefits
      for himself during the transition period,               including
     medical and retirement benefits.
             Management    also   disagrees    with     the     Report's
     conclusion that an appearance of wfavoritismB' resulted
     from the payment of special benefits to the transition
     team.    The arrangements were made in order to obtain the
     services of several key employees who otherwise could not
     have    assisted     in the transition.          Members    of   the
     transition team who did not have these problems, because
     they already lived in Washington, D.C.,       were not paid the
     benefits. 3   Nor, of course, were regular employees who

days. Although not excusable, this failure had no connection to
the payment of benefits not set forth in the Personnel Manual and
it did not r e s u l t i n any extra o r improper c o s t s to LSC: it merely
delayed the expense reimbursements received by the individuals
involved.
     3
          Management has not made a systematic effort to determine
whether similar benefits have been paid to LSC employees in the
past. As described in GAO Opinion B-210338 (Aug. 31, 1983), one
     lived with their families in the Washington area.            It is
     unlikely that any of them would have or could have
     thought themselves the victims of wfavoritism.n
            Finally, Management does not agree with the Report's
     recommendation    that   LSC     provide    n~    benefits    not
     authorized by the Personnel Manual or the Administrative
     Manual.   Although these written policies should continue
     to govern in most circumstances, it cannot be certain
     that special circumstances, such as those presented in
     the transition, will not arise again.        Management should
     have    the   flexibility   to    deal     with   these   future
     circumstances as warranted.
            Management also wishes to point out a number of
     instances in which the Report omits significant facts
     relating to the provision of various benefits.                For
     example, the Report states that the Executive Vice
     President and the Director of OPEAR/OPS received salary
     increases effective October 1, 1994, although a Board
     imposed salary freeze was in effect at the time.                In
     fact, the salary fixed on October 1, 1994 for both


former President of the Corporation was permitted two round trips
per month to his home in Indiana before his family could relocate
to the Washington area, and his living expenses in Washington were
paid by LSC.     According to the GAO, the Corporation's first
President also was permitted to delay his relocation to Washington
until his children completed the school year; he directed LSC from
his home in California and traveled to Washington, when necessary,
at LSC expense.         We are also informed that the Corporation
paid for private medical insurance on behalf of the former
Inspector General.
employees was the first time that a salary was determined
for them as    permanent employees.         Until that date they
had continued to receive the same salary as had been paid
during the period of their temporary employment,
     The Report also states that LSCts practice in the
past has been to pay parking for its President, thereby
suggesting that the decision to pay parking for the
Executive Vice President deviated from prior practice and
constituted an additional expense.           In fact, in the past
LSC has paid        parking   for employees other than the
President,    including       the    Vice-President,    Corporate
Secretary,    and    Director       of   Policy   Development   and
Communications.       And, in this instance, the President
himself did not request a parking space so that LSC
continued to pay for only one space.
     The Report states that LSC agreed with three of the
members of the transition team to make lump-sum payments
equivalent to the amount of the Corporation's retirement
plan contributions upon termination of their employment
if the contributions had not then vested.           As the Report

notes,   these arrangements were amended when              it was
learned that two of these individuals were already vested
under the LSC plan because of service credits earned in
earlier years, and the third employee never received a
lump-sum payment because she became a member of the
permanent staff.      The Report does not acknowledge that
these arrangements were an appropriate effort to insure
that the individuals would receive the benefit of the
retirement contributions, since they were expected to be
employed for periods shorter than the plan's vesting
schedule, nor that LSC has entered similar arrangements
in the past for the same reason.
     ¨ in ding B: In Some Instances LSC Did Not Report All
     Employee and Independent Contractor 1994 compensation to
     the Internal Revenue Service and Did Not Comply with Tax
     withholding Requirements.
     Response:     With respect to Recommendation 2, Management
     agrees that it should review the tax treatment of all
     benefits,     and   it   will   do    so.     With     respect   to
     ~ecommendation 3,        Management    requested      outside    tax
     counsel to review the finding and conclusions in the
     Draft Report regarding the reporting of benefits paid to
    members of the transition team.              Counsel has advised
     that, while the issue is a close one, the conservative
     approach is for LSC to treat payments noted in ind ding B
     for certain employees       as compensation.         Based on this
     advice, Management is in the process of making the
     necessary adjustments and will file the appropriate forms
    with the IRS.4
          However, Management believes that several assertions
     in this portion of the Report require amplification or
     correction:
          Although July 16, 1994, will be used for tax
          purposes as the effective date of the Director
          of OPEAR1s indefinite employment, based on the
          advice of counsel, it should be noted that
          while the Director indicated his willingness
          to accept a position in mid-July, agreement
          was not reached on the final terms and

    4
          With regard to the taxability of LSC9s reimbursement of
three employees1 medical insurance outside of the LSC plan, tax
counsel has advised that where additional proof of payment is
submitted to LSC, this should be sufficient to meet LSC1s
obligations, and such proof has now been provided.
          conditions of his indefinite employment until
          October because of the press of other matters.
          The Report states that the Director of OPEAR
          made ten trips to Denver between July 17, 1994
          and December 31, 1994 at LSC's expense and
          that LSC continued to pay the rent on his
          apartment in Washington, D.C. through October
          1994. As noted above, the tax treatment of
          the Director's travel to Colorado prior to
          October 1, 1994 will be adjusted. The Report
          is not correct that LSC paid for the
          Director's personal travel after October 1,
          1994; the personal portion of all such trips
          was reimbursed.
          As for the Assistant to the President, he was
          asked in early January to take a permanent job
          as a Program Officer and he accepted on
          January 5, 1995, subject to agreement on
          satisfactory terms.    He did not assume the
          Program Officer position until January 12,
          1995. While Management, based on the advice
          of counsel, agrees to treat January 5 as the
          date upon which an expectation of continued
          employment arose, it will continue to use
          January 12 as the date of 5his permanent
          employment for other purposes.

     5
          Management disagrees with a number of the assertions in
this section. First, the General Counsel of LSC did not state that
it was his l'understandingw that management's intent was to allow
the Assistant to stay on contract for exactly one year and no
longer because of tax consequences; the General Counsel stated to
the OIG representative that he had no knowledge of Management's
intent with respect to the effective date of the Assistant's
employment as a Program Officer and that anything he might say in
this regard would be wspeculation.~ Second, it is unreasonable to
suggest that one of the purposes of changing the Assistant's
appointment date from January 1 to January 12 was to allow him to
earn a higher salary, since the difference in compensation between
the two positions for the 11 day period was only $153, before
taxes.   Third, while it is true that the Assistant requested that
the effective date of his appointment be changed from January 1 to
January 12, the reason, which was explained to the OIG, was to
permit him to return to Boston on Friday, January 6 at LSC's
expense under his existing travel arrangement, a request which was
perfectly reasonable in view of the fact that he did not reach
agreement on his position as Program Officer until after he had
come to Washington in his former position at LSC1s expense.
Fourth, while, as reported by the Director of OHR, one of the
     Finding C: The Director Of The office of Program
     services (OPS) was Inappropriately Classified As An
     Independent Contractor.
     Response:    During the period from January 3, 1995
     through April 17, 1995, the ~irector of OPS was
     employed only on a part-time basis, while she
     concluded her job responsibilities in Alabama, and
     her principal LSC duties in this period involved
     becoming familiar with LSC projects for which she
     would be responsible after assuming the position
     full time.       With respect to ~ecommendation 4,
     Management also asked outside tax counsel to review
     the   Report's     finding   with   respect   to   the
     classification of the Director of OPS. Tax counsel
     has recommended that    the Director be reclassified
     as an employee for tax purposes.       The correction
     can be made in the same fiscal year and the tax
     consequences will be minimal.   Management will also
     consult tax counsel with regard to classification
     of other consultants.




purposes of the change in the Assistant's appointment date was to
insure that LSC would reimburse him for the January, 1995 COBRA
premium, the Report does not mention, as the Director of OHR also
stated to the OIG representative, that the Assistant had been
unable to cancel the COBRA coverage for the month of January
because he did not have sufficient notice of his change in status
at LSC, and it was therefore reasonable for LSC to reimburse him
for this amount under its previous agreement with him.
     Finding D:     Lack of Policy On Frequent Flyer
     Mileage Permits Potential Conflicts of Interest and
     Resulted In Unnecessary Expenses.
     Response:      While there has been no =itten            policy
     regarding ownership of frequent flyer awards earned
     on official LSC travel, it has been the long-
     standing practice of the Corporation to allow its
     employees to retain frequent flyer benefits for
     their personal use. This is documented in a 1986
     memorandum     from     the    General       Counsel    to   the
     Secretary of the Corporation in which he concluded
     that no provision of law prohibits the Corporation
     from treating frequent flyer benefits in this way.
     In   the    early     1990s,    a    former    LSC     President
     considered whether        to change the practice             and
     concluded he would not.
          Management recognizes that by not attempting
     to recover frequent flyer awards earned on official
     travel, LSC may give up the opportunity to defray
     some official travel expenses.              However, it should
     be   noted    that      there       would     be     significant
     administrative       difficulties       in     attempting    to
     recapture frequent flyer awards from individual
     employees6 and the unsuccessful experience of many


     6
          These costs result from the fact that airlines are
unwilling to allow travelers to establish separate accounts for
their business-related travel or to credit businesses for frequent
flyer awards when they pay for a ticket.
     federal agencies which have attempted to do so. 7
     For these and other reasons, the former President
     of LSC concluded that any savings to LSC would not
     justify   the     additional   administrative   costs
     associated with a change in policy.    As directed by
     the LSC Board of Directors at its meeting on July
     14, 1995, Management will review the frequent flyer
     issue again, including the potential for conflicts
     of interest, taking into account the experience of
     federal agencies and other relevant entities.       The
     results of this review will be incorporated into a
     written policy.
          With regard to the specifics of travel by the
     Director of OPEAR, the Report suggests that he
     incurred unnecessary expense by flying on United
     Airlines from Dulles Airport solely to accumulate
     additional   frequent   flyer miles.   In   fact,   the
     Director could have flown on United from National


     I
          Although employees of federal agencies are prohibited
from using frequent flyer awards earned on official travel, this
policy has not resulted in significant benefits to the agencies.
Rather, it has been reported that as a result of this policy many
federal employees either do not participate in frequent flyer
programs or accumulate but do not use awards earned on official
travel pending a change in federal policy or their retirement.
Thus, neither the employees nor the agencies benefit from the award
programs. In order to encourage employees to use the awards for
official travel, one federal agency now makes a cash award to
employees who use their frequent flyer benefits for official travel
equivalent to 50% of the savings to the agency.      It is unclear
whether even this practice will have a significant positive effect
on agency travel costs.
     Airport as well.     He flew on United from Dulles
     because   the   flights   to   and   from   Denver   were
     nonstop, whereas flights from National on United
     and other carriers take much longer and frequently
     would not have allowed him to reach home by Friday
     evening or to return to Washington, D.C. until very
     late on Monday.    As the Report notes, the Director
     was not informed by the LSC travel office or Omega
     Travel Services nor was he otherwise aware of cost
     differences between flights from National Airport
     and   flights from   Dulles to Denver.         However,
     whenever he was cognizant of cost differences in
     booking his flights, he took steps to insure that
     LSC incurred no extra cost, as he did with regard
     to the trip to New Orleans mentioned in the Report.'




     8
          The Report also fails to mention the specific reason the
Director wished to retain frequent flyer miles for personal travel.
When the Director was asked to come to Washington to assist in the
transition period, his wife and teenage daughter were unable to
relocate to Washington from their home in Colorado because of the
uncertain duration of the transition and their work and school
commitments in Colorado. Allowing personal use of frequent flyer
credits made it possible for the Director to bring his family to
Washington on occasion, necessitating fewer trips home.
      ind ding E: LSC Employees Used Government Contract
     Fares For Personal Travel Which Violated Its MOU
     With GSA And Omega Travel Services And Its Own
     Travel Policies.
     Response:     Management disagrees with the Report's
     conclusion in Point 1 of Finding E that Government
     contract rates were used for personal travel as a
     consequence     of    misclassification   of     indefinite
     employees as temporary.           The trips made by the
     Director of OPEAR and the Director of OPS were paid
     for by the Corporation pursuant to its employment
     agreements with these individuals.             These trips
     therefore were not NpersonalN. Insofar as LSC was
     bound to pay the fares for these trips, Management
     was advised by the Office of General Counsel            that
     it   was    proper,   under     its agreements with      the
     General Services ~dministrationand Omega Travel,
     to use the government contract rates.              Even if
     these      individuals   were    misclassified    for    tax
     purposes, LSC1s payment of the travel was proper
     and the use of Government contract rates for the
     fares paid by LSC was also proper. 9

     9
          When she was offered the position of Director of OPS in
December, 1994, the Director indicated that she could not move to
Washington    for   several  months   because   of   her   current
responsibilities as Executive Director of the Legal services
Corporation of Alabama. The President and Executive Vice President
concluded that it was important to LSC to have the Director assume
the position immediately, albeit on a part-time basis, and they
agreed therefore to have LSC pay for up to five round trips from
Alabama to Washington. The trip to Washington on ~ p r i l17, 1995
was the first leg of a trip which also involved business related
                 Finally, with respect to the second point
         raised    by   the   Report,   Management   agrees   that
         Government contract rates' should not be used        when
         an LSC employee combines personal and business
         travel or when an employee makes a purely personal
         trip.    In a few instances an employee was permitted
         to use contract rates for personal travel and to
         reimburse LSC on that basis.      This should not have
         happened and, as set forth in recommendation 6,
         Management is reviewing its internal procedures to
         ensure that these lapses do not recur.

    trips to Nashville, Tennessee and Tulsa, Oklahoma, with a return
    trip to Alabama. Since the ~labama-washington-Alabama segments of
    this trip were not covered in the five trips previously agreed to
    by LSC, the Director of OPS agreed to pay for part of the ticket
    and she instructed the Comptroller's office to deduct the correct
    amount from amounts otherwise owed to her as travel reimbursements
    from this and other trips. The Director's understanding is that
    the amount she will pay will be calculated at commercial rates.
         The use of Government contract rates for the August, 1994,
    trip by the Special Assistant to the President also had nothing to
    do with her status as a temporary employee and was appropriate
    under the circumstances. The Special Assistant had for many months
    been scheduled to participate in her brother's wedding in Boston
    beginning at 5 : 0 0 p.m. on Friday, August 5, 1994. She had planned
    to drive to Boston on that Friday and to return on Monday. At the
    last minute it developed that other staff in the LSC Executive
    Office could not be in the office on either that Friday or Monday,
    and the Special Assistant was requested to change her travel plans
    so that she could be present. This required that she travel to
    Boston by air rather than automobile. The Executive Vice President
    agreed that, since the costs of the airplane trip were incurred to
    accommodate LSC they would be paid by LSC, and the ticket was
    accordingly charged at the Government contract rate. Weeks later,
    after OIG questioned this expense, the Special Assistant
    volunteered to pay for the airplane trip in order to avoid any
    appearance of impropriety. Since it was then too late to change
.   the billings for this trip, the amount which she paid was
    calculated at the government rate charged to LSC when the trip was
    still regarded as an official trip.
                              APPENDIX VI




Office of Inspector General         Renee L. Szybala, Assistant Inspector General
Legal Services Corporation           for Legal Review
750 First Street, N.E.
Washington, D.C. 20002              Karen M. Voellm, Chief of Audits

                                    Jerome Rodgers, Project Lead Auditor
                                    Charmaine Romear, Supervising Senior
                                      Auditor
                                    Reginald Brockington, Senior Auditor
                                    Scott Young, Senior Auditor
